App. 1
Note: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit

DIANE S. BLODGETT, TOM LINGENFELTER,
Plaintiffs -Appellants
v.
UNITED STATES,
Defendant-Appellee
2018-2398
Appeal from the United States Court of Federal
Claims in No. l:17-cv-02000-LAS, Senior
Judge Loren A. Smith.
Decided: December 3, 2019
Diane S. Blodgett, St. Louis Park, MN, pro se.
Tom Lingenfelter, Doylestown, PA, pro se.
Borislav Kushnir, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for defendant-appellee. Also repre­
sented by Joseph H. Hunt, Elizabeth Marie Hosford,
Robert Edward Kirschman, Jr.

App. 2
Before Newman, Lourie, and Reyna, Circuit
Judges.
Per Curiam.
Diane S. Blodgett and Tom Lingenfelter are asso­
ciates of T.G. Morgan, Inc., a rare coin dealer that was
shut down by the Federal Trade Commission in the
early 1990s for fraudulent and deceptive business
practices. Shortly after the shutdown, TGM’s creditors
forced the company into bankruptcy. More than 25
years later, Blodgett and Lingenfelter, proceeding pro
se, filed a lawsuit at the U.S. Court of Federal Claims.
Their 832-page complaint alleged that the 1990s pro­
ceedings were part of an “egregious conspiracy” perpe­
trated by multiple federal courts, multiple federal
agencies, and by their own attorneys. The Claims
Court dismissed Blodgett’s and Lingenfelter’s com­
plaint for lack of subject matter jurisdiction, untimeli­
ness, and failure to state a claim upon which relief
can be granted. [SA 1, 5] Because we agree with the
Claims Court on each ground for dismissal, we affirm.

Background
In August 1991, the Federal Trade Commission
(“FTC”) brought fraud charges in federal district court
against a rare coin dealer, T.G. Morgan, Inc. (“TGM”),
and its president, Michael Blodgett. To settle the FTC
action, TGM and its principals agreed in a signed con­
sent order to transfer TGM’s assets to a “settlement es­
tate” that would reimburse the victims of TGM’s fraud.
TGM’s assets were transferred to the settlement estate

App. 3
“irrevocably and without the possibility of reversion to
themselves or to any entity owned or controlled by
them.”Fed. Trade Comm. u. T.G. Morgan, Inc., No. Civ.
4-91-638,1992 WL 88162, at *4 (D. Minn. Mar. 4,1992).
The district court explained that TGM and its princi­
pals had thus “waive [d] any and all claims that they, or
entities owned or controlled by them, may have to the
[transferred] assets.” Id. at *5.
Shortly thereafter, TGM’s creditors forced the
company into involuntary bankruptcy. The bankruptcy
court appointed a trustee to manage the bankruptcy
estate. The trustee filed a motion to seize assets in the
settlement estate and transfer those assets to the
bankruptcy estate. Mrs. Diane S. Blodgett, a principle
of TGM, and Mr. Thomas Lingenfelter, a business asso­
ciate and third party beneficiary of TGM, objected to
the transfer. The bankruptcy court rejected their argu­
ments, finding that neither party had a legally cogniza­
ble claim against the settlement estate. The
bankruptcy court granted the trustee’s motion.
Over the next 25 years, Mrs. Blodgett and Mr. Lin­
genfelter (collectively, “Blodgett”) filed more than a
dozen lawsuits that claimed an interest in the assets
seized by the trustee and challenged the scope and con­
tent of the bankruptcy estate. In each case, the court
rejected Blodgett’s claims as meritless.
On December 18, 2017, Blodgett filed an 832-page
pro se complaint in the U.S. Court of Federal Claims
(“Claims Court”). Blodgett’s complaint, which gave rise
to this appeal, alleges a 26-year government

App. 4
conspiracy that involves breach of contract, various
torts, a Fifth Amendment taking, and violations of the
Bankruptcy Code, the Internal Review Code (“IRC”),
and the Employment Retirement Income Security Act
of 1974 (ERISA).
On March 13, 2018, the Government moved to dis­
miss Blodgett’s complaint. Blodgett opposed. On July
26, 2018, the Claims Court granted the Government’s
motion for three reasons. First, the Claims Court found
a lack of subject matter jurisdiction over Blodgett’s
Bankruptcy Code, IRC, and ERISA claims. Second, the
Claims Court held that all of Blodgett’s claims are
barred by the Tucker Act’s six-year statute of limita­
tions. Third, the Claims Court held that Blodgett failed
to state a takings claim because Blodgett irrevocably
transferred the assets-in-question to the settlement
estate and relinquished all rights and property inter­
ests in those assets. The Claims Court instructed the
clerk to refuse any further filings or complaints from
Blodgett without leave of court.
Blodgett timely appealed pro se. We have jurisdic­
tion under 28 U.S.C. § 1295(a)(3).
Discussion
We review de novo whether the Claims Court has
properly dismissed for lack of jurisdiction or for failure
to state a claim, both of which are questions of law.
Turping v. United States, 913 F.3d 1060,1064 (Fed. Cir.
2019). To survive a motion to dismiss for failure to
state a claim upon which relief can be granted, a

App. 5
complaint must contain sufficient factual allegations
that, if true, would state a claim to relief that is plau­
sible on its face. Call Henry, Inc. v. United States, 855
F.3d 1348, 1354 (Fed. Cir. 2017).
To survive a motion to dismiss for lack of subject
matter jurisdiction, the plaintiff must prove by a pre­
ponderance of the evidence that the court possesses ju­
risdiction. Id. When determining whether subject
matter jurisdiction exists, we generally “accept as true
all undisputed facts asserted in the plaintiff’s com­
plaint and draw all reasonable inferences in favor of
the plaintiff.” Trusted Integration, Inc. v. United States,
659 F.3d 1159, 1163 (Fed. Cir. 2011). While pro se
pleadings, like those here, are to be liberally construed,
that does not alleviate a plaintiff’s burden to establish
jurisdiction. Reynolds u. Army & Air Force Exch. Serv.,
846 F.2d 746, 748 (Fed. Cir. 1988).
The jurisdiction of the Claims Court is limited in
two ways: by subject matter and by timing. First, the
Tucker Act limits the subject matter jurisdiction of the
Claims Court to claims against the United States for
money damages other than those sounding in tort, in­
cluding those arising from a contract, the Constitution,
or a federal statute or regulation. 28 U.S.C.
§ 1491(a)(1). Because the Tucker Act itself does not cre­
ate a substantive cause of action, a plaintiff must iden­
tify a separate money-mandating source of substantive
law that creates the right to money damages. Fisher u.
United States, 402 F.3d 1167,1172 (Fed. Cir. 2005).

App. 6
Second, all claims brought before the Claims
Court “shall be barred unless the petition thereon is
filed within six years after such claim first accrues.” 28
U.S.C. § 2501. See Holmes u. United States, 657 F.3d
1303, 1317 (Fed. Cir. 2011) (explaining that “[c]ompliance with the statute of limitations is a jurisdictional
requirement”). A cause of action “first accrues” when
“all the events have occurred that fix the alleged liabil­
ity of the government and entitle the claimant to insti­
tute an action.” Holmes, 657 F.3d at 1317. For example,
“[i]n the case of a breach of a contract, a cause of action
accrues when the breach occurs.” Id.
We begin with Blodgett’s claims that are based on
violations of the Bankruptcy Code, the IRC, and the
ERISA. We conclude that the Claims Court properly
dismissed each claim for lack of subject matter juris­
diction.
Blodgett appears to assert three bankruptcy-re­
lated claims, each arising under Title 11: (i) the courtappointed trustee failed to perform his fiduciary duties
in violation of 11 U.S.C. § 704, (ii) the bankruptcy court
performed an improper offset in violation of 11 U.S.C.
§ 362(a)(7); and (iii) TGM’s creditors filed involuntary
bankruptcy filing in bad faith in violation of 11 U.S.C.
§ 303. S.A. 126, 137, S.A. 249; S.A. 607. We conclude
that the Claims Court properly dismissed each of
Blodgett’s bankruptcy claims for lack of subject matter
jurisdiction because district courts—and not the
Claims Court—have “original and exclusive jurisdic­
tion of all cases under title 11.” 28 U.S.C. § 1334.

App. 7
Blodgett’s IRC-based claim appears to assert that
the government conducted unauthorized tax collec­
tions by virtue of the 1990s FTC proceedings and con­
sent order. S.A. 167, S.A. 595. We conclude that the
Claims Court properly dismissed this claim for lack of
subject matter jurisdiction because claims for damages
based on allegedly unauthorized tax collections must
be brought “exclusively before a district court of the
United States.” Ledford v. United States, 297 F.3d 1378,
1382 (Fed. Cir. 2002).
Blodgett’s ERISA-based claim appears to assert
that the bankruptcy court violated ERISA’s anti-alien­
ation provisions by alienating “Blodgett’s fully funded,
fully vested, fully compliant ERISA pension” and sub­
jecting it to a constructive trust. S.A. 24. See also S.A.
14, 51, 69 (claiming the FTC “lootfed] the Blodgett’s
TGM fully funded ERISA pension fund”). We conclude
that the Claims Court properly dismissed this claim
for lack of subject matter jurisdiction because the
Claims Court “shall not have jurisdiction [over] any
claim for a pension.” 28 U.S.C. § 1501.
We likewise conclude that the Claims Court lacked
subject matter jurisdiction over Blodgett’s torts claims.
Blodgett asserts that the government committed “hun­
dreds of torts” and “years of unending torts,” including
“bad faith torts,” and “torts in court filings.” S.A. 9, S.A.
14, S.A. 18, S.A. 40, S.A. 69. As a result, Blodgett con­
tends, “the United States must now pay the bill.” S.A.
107. We conclude that the Claims Court properly dis­
missed these claims because the Claims Court “lacks
jurisdiction over tort actions against the United

I

App. 8
States.” Brown v. United States, 105 F.3d 621, 623 (Fed.
Cir. 1997) (citing 28 U.S.C. § 1491(a) (excluding from
the Claims Court’s jurisdiction cases “sounding in
tort”)).
Blodgett’s remaining claims—a breach of contract
claim and Fifth Amendment taking claim—are barred
by the Claims Court’s six-year statute of limitations.
Blodgett’s contract claim appears to assert that
Blodgett entered into a “settlement contract with the
FTC” when Mrs. Blodgett signed the FTC consent or­
der and “fully funded 50% of the consent settlement on
December 31, 1991.” S.A. 8, S.A. 12. Blodgett alleges
that the bankruptcy trustee’s 1992 seizure of funds
from the settlement estate breached the contract “by
interference with Ms. Blodgett’s access to untainted
personal assets.” S.A. 118, 801. The contract claim thus
“first accrued” in 1992, when Blodgett contends the
breach occurred. Holmes, 657 F.3d at 1317. As a result,
Blodgett’s contract claim is barred because it was filed
in 2017, more than six years after it first accrued. 28
U.S.C. § 2501.
Blodgett’s Fifth Amendment taking claim appears
to assert that the FTC’s acquisition and liquidation of
assets in 1991 and 1992 constituted a taking of per­
sonal property “without just compensation.” S.A. 39,
S.A. 258-259, S.A. 392-393. A takings claim under the
Fifth Amendment “accrues when the taking action oc­
curs.” Navajo Nation v. United States, 631 F.3d 1268,
1273-74 (Fed. Cir. 2011); Nw. La. Fish & Game Pres.
Comm’n v. United States, 446 F.3d 1285,1289 (Fed. Cir.

App. 9
2006) (“A taking occurs when governmental action de­
prives the owner of all or most of its property inter­
est.”). Construing Blodgett’s complaint liberally, the
takings claim first accrued in 1992, when the FTC
placed TGM’s assets in the settlement estate. As a re­
sult, Blodgett’s Fifth Amendment takings claim is
barred because it was filed in 2017, more than six years
after it first accrued. 28 U.S.C. § 2501.1
Blodgett attempts to circumvent the six-year stat­
ute of limitations by arguing that Blodgett “first sued
under the Tucker Act in December 1994, thus arguably
timely preserving their claims back to 1991.” S.A. 1990.
See also Appellant Br. at 13-14 (asserting that the
1994 complaint “tolled any statute of limitations”). As
we have explained, the Claims Court’s six-year statute
of limitations “is jurisdictional and may not be waived
or tolled.” FloorPro, Inc. u. United States, 680 F.3d 1377,
1382 (Fed. Cir. 2012) (the six-year period “cannot be ex­
tended even in cases where such an extension might
be justified on equitable grounds.”). Nor can Blodgett
argue that the instant complaint is timely under the
“relate back doctrine” of Rule 15(c) of the Rules of the
U.S. Court of Federal Claims, because Rule 15(c)

1 We also agree with the Claims Court that Blodgett failed to
state a Fifth Amendment takings claim upon which relief can be
granted. Because TGM irrevocably transferred the assets-inquestion and “waive[d] any and all claims” to those assets, T.G.
Morgan, 1992 WL 88162, at *4-*5, Blodgett cannot “identify a le­
gally cognizable property interest.” Am. Bankers Ass’n v. United
States, 932 F.3d 1375, 1384-85 (Fed. Cir. 2019).

App. 10
expressly applies only to amended complaints, not
newly filed complaints.
Because all of Blodgett’s claims are outside the
scope of the Tucker Act or time-barred, we conclude
that the Claims Court properly dismissed Blodgett’s
complaint.
Conclusion
We have considered Blodgett’s other arguments
and find them unpersuasive. We conclude that the
Claims Court properly dismissed Blodgett’s complaint
for lack of subject matter jurisdiction, untimeliness,
and failure to state a claim upon which relief can be
granted. We affirm.
AFFIRMED
Costs
No costs.

App. 11
United States Court of Federal Claims
No. 17-2000C
Filed: July 26, 2018
DIANE S. BLODGETT, et al., )
Plaintiffs,
v.
THE UNITED STATES
OF AMERICA,
Defendant.

)
)
)
)
)
)
)
)

OPINION AND ORDER
SMITH, Senior Judge
On December 18, 2017, plaintiffs, proceeding pro
se, filed their Complaint with this Court, seeking vari­
ous forms of relief. Plaintiffs’ Complaint asserts, inter
alia, that the government has violated the Bankruptcy
Code, the Internal Revenue Code, and the Employee
Retirement Income Security Act of 1974, and that that
the government has committed a Fifth Amendment
Takings Claim and committed various torts against
plaintiffs.
I.

Background

Pro se plaintiffs, Diane Blodgett and Tom Lingenfelter, raise claims stemming from an action brought
by the Federal Trade Commission (“FTC”) in the early
1990’s. Complaint (hereinafter “Compl.”) at 6. In

App. 12
August 1991, the FTC brought suit against T.G. Mor­
gan (“TGM”) and its president for violations of the pro­
hibitions against deceptive practices under the Federal
Trade Commission Act, 15 U.S.C. § 45(a) (2006). In re
T.G. Morgan, Inc., 175 B.R. 702, 703 (Bankr. D. Minn.
1994). The FTC charged and convicted Michael
Blodgett, Diane Blodgett’s husband and TGM’s presi­
dent, of fraud. Lingenfelter v. Stoebner, 2005 WL
1225950, at *1 (D. Minn. May 23, 2005). Michael
Blodgett, TGM, and TGM’s principals agreed to place
TGM’s assets into a “Settlement Estate” for the pur­
pose of reimbursing its victims. Id.
The Final Judgement, issued March 4, 1992, ap­
pointed a receiver to liquidate assets within the Settle­
ment Estate. FTC v. T.G. Morgan, 1992 WL 88162, at
*5 (D. Minn. Mar. 5, 1992). TGM and Mr. and Mrs.
Blodgett irrevocably transferred all assets contained
in the Settlement Estate to the FTC. Id. at *4. During
these proceedings, TGM’s creditors filed an involun­
tary bankruptcy suit against TGM. Lingenfelter, 2005
WL 1225950 at *1. TGM was subsequently forced into
bankruptcy, and, despite protests from TGM’s princi­
pals, the Bankruptcy Court transferred the Settlement
Estate assets to TGM’s bankruptcy estate. Id. In its Fi­
nal Judgement, the Bankruptcy Court found that Mrs.
Blodgett and Mr. Lingenfelter had no claims against
the estate. Id. In the case at bar, plaintiffs appear to
seek the assets that were irrevocably transferred to
the FTC and then subsequently transferred to TGM’s
bankruptcy estate. Compl. at 14.

App. 13
In the 25 years since the origin of the FTC matter
in 1991, plaintiffs have filed numerous lawsuits
against many defendants in a variety of courts. One of
the most recent and significant iterations was in Lingenfelter, where Tom Lingenfelter and other parties,
including Diane Blodgett, raised similar claims. Lin­
genfelter, 2005 WL 1225950, at *1. That cause of action
was dismissed with prejudice by the presiding judge.
Id. at *7.
On December 18, 2017, plaintiffs filed the current
Complaint with this Court. Compl. at 1. Plaintiffs seek
relief through Rule 60(b)(6) of the Rules of the Court of
Federal Claims (“RCFC”) for prior judgments that
were allegedly entered wrongfully through various
torts, conspiracies, and schemes. Compl. at 57.
On March 13, 2018, the government filed a Motion
to Dismiss for lack of subject-matter jurisdiction and
for failure to state a claim upon which relief can be
granted, pursuant to RCFC 12(b)(1) andl2(b)(6). De­
fendant’s Motion to Dismiss (hereinafter “MTD”) at 1,
4. First, the government argues that that this Court
lacks jurisdiction over plaintiffs’ contract, statutory,
and tort claims. Id. at 5-7. Next, the government as­
serts that plaintiffs fail to state a plausible Fifth
Amendment takings claim. Id, at 8-9. Finally, the gov­
ernment asserts that plaintiffs’ claims are barred by
the applicable statute of limitations. Id. at 9-10.
Plaintiffs’ filed their Response to defendant’s Mo­
tion to Dismiss on April 18, 2018, arguing that RCFC
60(b)(6) allows this Court to overlook the government’s

App. 14
arguments for dismissal. Plaintiffs’ Response to Mo­
tion to Dismiss (hereinafter “P’s Resp.”) at 7. Plaintiffs
believe that “[RCFC] 60(b)(6) is triggered by either
egregious affirmative schemes or new rules of law.” Id.
at 1. Furthermore, plaintiffs believe that RCFC
60(b)(6), once triggered, will permit this Court to over­
turn judgments, despite jurisdictional and statutory
time limits, so long as a justification for relief exists.
Id. at 3. The government filed its reply in support of its
Motion to Dismiss on April 25, 2018. This case is now
fully briefed and ripe for review.
II.

Standard of Review

This Court’s jurisdictional grant is primarily de­
fined by the Tucker Act, which provides this Court the
power “to render any judgment upon any claim against
the United States founded either upon the Constitu­
tion, or any Act of Congress or any regulation of an ex­
ecutive department, or upon any express or implied
contract with the United States ... in cases not sound­
ing in tort.” 28 U.S.C. § 1491(a)(1) (2012) (emphasis
added). Although the Tucker Act expressly waives the
sovereign immunity of the United States against such
claims, it “does not create any substantive right en­
forceable against the United States for money dam­
ages.” United States v. Testan, 424 U.S. 392, 398 (1976).
Rather, in order to fall within the scope of the Tucker
Act, “a plaintiff must identify a separate source of sub­
stantive law that creates the right to money damages.”
Fisher v. United States, 402 F.3d 1167, 1172 (Fed. Cir.
2005) (en banc in relevant part).

App. 15
In determining whether subject-matter jurisdic­
tion exists, the Court will treat factual allegations in
the complaint as true and will construe them in the
light most favorable to the plaintiff. Estes Express
Lines v. United States, 739 F.3d 689, 692 (Fed. Cir.
2014). Further, pleadings from pro se plaintiffs are held
to more lenient standards than pleadings drafted by
lawyers. Hughes v. Rowe, 449 U.S. 5, 9 (1980); see also
Erickson v. Pardus, 551 U.S. 89, 94 (2007). This leni­
ency, however, does not extend to saving a complaint
that lies outside of this Court’s jurisdiction. “Despite
this permissive standard, a pro se plaintiff must still
satisfy the court’s jurisdictional requirements.” Tre­
vino v. United States, 113 Fed. Cl. 204, 208 (2013), red,
557 F. App’x 995 (Fed. Cir. 2014) (citations omitted).
Pro se or not, the plaintiff still has the burden of estab­
lishing by a preponderance of the evidence that this
Court has jurisdiction over its claims. See Kokkonen v.
Guardian Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994).
III. Discussion
Plaintiffs claim that the FTC, upon accepting the
December 1991 Settlement Agreement, breached its
contractual obligations. Compl. at 2. Plaintiffs’ con­
tract claim rests on the belief that a contract was cre­
ated between the FTC and the parties, which was
breached when plaintiffs’ assets were transferred to
the bankruptcy estate. Plaintiffs further assert that
the FTC owed a fiduciary duty related to the assets
from the original FTC and bankruptcy matters, and
that the breach of that duty caused plaintiffs’ to suffer

App. 16
losses. Compl. at 794. However, it should be noted that
plaintiffs surrendered all rights to the assets in ques­
tion. T G. Morgan, 1992 WL 88162, at *4. Specifically,
the Final Judgment and Order for Permanent Injunc­
tion stated the following:
It Is Further Ordered that the Defendants
and the non-party spouse of Defendant [Diane
Blodgett] . . . hereby transfer to the [FTC], ir­
revocably and without the possibility of rever­
sion to themselves or to any entity owned or
controlled by them, any and all title, owner­
ship, rights, interests, and options, present or
future, that they, or any entity owned or con­
trolled by them. . . .
T. G. Morgan, 1992 WL 88162, at *4-5 (emphasis added)
(including a list of assets that have been omitted). As
such, no contract claim exists over which this Court
has jurisdiction.
Plaintiffs allege that their assets were improperly
seized and committed to the Bankruptcy Estate.
Compl. at 267-68. This bankruptcy claim appears to fo­
cus on the fact that they did not consent to the invol­
untary bankruptcy. P’s Resp. at 10. Additionally,
plaintiffs state that “the involuntary bankruptcy filing
was in bad faith under 11U.S.C. § 303 [(2016)].” Compl.
at 120. Alternatively, plaintiffs claim that a fiduciary
duty was breached in the original bankruptcy proceed­
ing. Compl. at 794. Claims brought under 11 U.S.C.
§ 303 are governed by 28 U.S.C. §§ 151 and 1334. 28
U.S.C. §§ 151 (1984), 1334 (2005). Both sections estab­
lish that district courts shall have original and

App. 17
exclusive jurisdiction over all cases arising under Title
11. Id. As such, this Court has no jurisdiction over
those claims.
Plaintiffs next contend that the United States vi­
olated the Internal Revenue Code (“IRC”)- Compl. at
12. As best as this Court can discern, plaintiffs’ IRC
claim is a civil action against the FTC on the grounds
of allegedly unauthorized collection actions. Compl. at
161. In Ledford v. United States, the Court of Appeals
for the Federal Circuit held that claims for damages
arising out of allegedly unlawful tax collection activi­
ties must be brought “exclusively before a district court
of the United States.” Ledford u. United States, 297
F.3d 1378, 1382 (Fed. Cir. 2002). Moreover, the Court
specified that, as it pertains to unlawful tax collection
activities, “[t]he Court of Federal Claims is not a dis­
trict court of the United States, and therefore it lacks
subject-matter (jurisdiction].”/^. Therefore, this Court
is barred from considering plaintiffs’ IRC claims.
Additionally, plaintiffs argue that the FTC settle­
ment violated their rights under the Employee Retire­
ment Income Security Act of 1974, 29 U.S.C.A. § 1001
(1978) (“ERISA”), and that the Final Judgement “vio­
lated multiple Supreme Court rulings ... as to
ERISA’s anti-alienation clause and TGM ERISA
§ 13.04.” Compl. at 7-8. The plain language of 28 U.S.C.
§ 1501 states, “[t]he [U.S.] Court of Federal Claims
shall not have jurisdiction [over] any claim for a pen­
sion.” Howell v. United States, 127 Fed. Cl. 775, 788
(2016) (referencing 28 U.S.C. § 1501 (2012)). Claims
asking the federal government “to intervene and

App. 18
compel private employers to pay the pensions allegedly
due to plaintiffs, or for the government to pay the pen­
sions in place of the private employers, lie outside the
subject!-]matter jurisdiction of this [C]ourt and are
dismissed.” Id.
Plaintiffs’ final claims allege that the FTC, in the
original 1991 TGM proceeding, committed a Fifth
Amendment taking ‘“without just compensation’ of
personal property.” Compl. at 33. This Court must eval­
uate a Fifth Amendment takings claim under a twopart test; the first prong requires plaintiff to establish
a property interest, and, if plaintiff fails, this Court
need not look further. Pucciariello v. United States, 116
Fed. Cl. 390, 414 (2014). As plaintiffs clearly trans­
ferred their interest in the assets at issue to the FTC
“irrevocably and without the possibility of reversion to
themselves or to any entity owned or controlled by
them,” no such property interest exists.
Even if this Court did have jurisdiction over plain­
tiffs’ claims, the complaint is barred by the statute of
limitations. Under the Tucker Act, Claims filed in this
Court are subject to a strict six-year statute of limita­
tions, which begins when each claim first accrues. 28
U.S.C. §2501. As plaintiffs’ claims all stem from the
1991-1992 FTC matter, logically this Court may infer
that plaintiffs were aware of the existence of their
claims at the issuance of the Final Judgment. As such,
this Court lacks the requisite jurisdiction to examine
plaintiffs’ claims.

App. 19
As a catch-all, plaintiffs seek relief under RCFC
60(b)(6), asserting that the Rule expands both the ju­
risdiction of this Court, as well as the mandatory sixyear statute of limitations under the Tucker Act.
Compl. at 6. Under RCFC 60(b), relief may be granted
from a final judgment, order, or proceeding for a “rea­
son that justifies relief.” RCFC 60(b)(6). This Court
finds no such reason here. Furthermore, “[t]he Su­
preme Court has indicated that RCFC 60(b)(6) should
be applied only in ‘extraordinary circumstances.’" Pro­
gressive Indus., Inc., v. United States, 888 F.3d 1248,
1255 (Fed. Cl. 2018) (citing to Liljeberg v. Health Servs.
Acquisition Corp., 486 U.S. 847, 863, 108 S.Ct. 2194,
100 L.Ed.2d 855 (1988)). The Court will not endeavor
to apply it now.
IV.

Conclusion

For the reasons set forth above, defendant’s MO­
TION to dismiss is GRANTED. The Clerk is directed
to enter Judgment in favor of defendant, consistent
with this opinion. Additionally, it is ORDERED that
the Clerk is directed to accept no further filings or com­
plaints related to the claims in the case at bar from
Diane Blodgett or Tom Lingenfelter, without an order
granting leave to file such filings from the Chief Judge
of the United States Court of Federal Claims. In seek­
ing leave to file any future documents, Mrs. Blodgett
and Mr. Lingenfelter must explain how their submis­
sion raises new matters properly before this Court. See

App. 20
RCFC ll(b)-(c) (barring the filing of unwarranted or
frivolous claims that have no evidentiary support).
IT IS SO ORDERED.
/s/ Loren A. Smith
Loren A. Smith
Senior Judge

App. 21
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,
Plaintiff,

Civ. No.
4-91-638 (DEM)

vs.
T. G. Morgan, Inc, and
Michael W. Blodgett,
Defendants.
FINAL JUDGMENT AND ORDER FOR PERMANENT
INJUNCTION AND FOR SETTLEMENT OF
CLAIMS FOR MONETARY RELIEF
Plaintiff, the Federal Trade Commission (“Com­
mission”), commenced this action by filing a complaint
against Defendants T.G. Morgan, Inc. (“TGM”) and
Michael W. Blodgett (“Blodgett”). The complaint al­
leges that Defendants have engaged in deceptive acts
or practices in violation of Section 5 of the Federal
Trade Commission Act (“FTC Act”), 15 U.S.C. § 45, and
seeks a permanent injunction and redress for injured
consumers pursuant to § 13(b) of the FTC Act, 15
U.S.C. § 53(b).
The parties hereby stipulate to the entry of this
Final Judgment and Order (“Order”). Being advised in
the premises, the Court accordingly finds:
1. This is an action by the Commission instituted
under §§ 5 and 13(b) of the FTC Act, 15 U.S.C. §§ 45

App. 22
and 53(b). The complaint seeks both permanent injunc­
tive relief and consumer redress, alleging that Defen­
dants engaged in deceptive acts and practices in
connection with the sale of coins.
2. The commission has the authority under
§ 13(b), of the FTC Act, 15 U.S.C. § 53(b), to seek the
relief it has requested.
3. This Court has jurisdiction over the subject
matter of this case and has jurisdiction over the De­
cants. Venue in the District of Minnesota is proper, and
the complaint states a claim upon which relief may, be
granted under §§ 5 and 13(b) of the FTC Act, 15 U.S.C.
§§ 45 and 53(b).
4. The activities of Defendants are in or assisting
commerce, as defined in § 4 of the FTC Act, 15 U.S.C.
§44.
5. Defendants’ agreement to entry of this final
judgment and a permanent injunction under § 13(b) of
the FTC Act, 15 U.S.C. § 53(b), in no way constitutes
an admission by Defendants, the non-party spouse of
Defendant, or any of their directors, officers, agents or
employees, that they have engaged in any illegal or
wrongful conduct of any nature whatsoever, or that
any person has sustained damage or suffered harm by
reason of any of the allegations in the Commission’s
complaint or otherwise.

App. 23
I.
DEFINITIONS
(1) The term “Defendants” refers inclusively to
either TGM or to Blodgett or to both.
(2) The term “investments” means any items,
tangible or intangible, whose purchase was, is, or
would be for the purpose of earning or enjoying future
income, appreciation in value or profit upon resale, or
for the purpose of preserving capital, or any combina­
tion of the foregoing purposes, in whole or in part.
II.
INJUNCTIVE PROVISIONS
IT IS ORDERED, ADJUDGED, AND DECREED
that Defendants and successors, assigns, officers,
agents, servants, employees, and all persons or entities
in active concert or participation with Defendants, are
hereby permanently restrained and enjoined from:
(1) Falsely representing in any manner, directly
or by implication, that purchasing coins that
Defendants offer for sale is an effective means
of preserving wealth;
(2) Falsely representing any manner, directly or
by implication, that purchasing coins that
Defendants offer for sale is an effective means
of holding wealth in a form that can be easily
liquidated;

App. 24
(3) Falsely representing in any manner, directly
or by implication, the safety of investing in
coins that Defendants offer for sale;
(4) Falsely representing in any manner, directly
or by implication, the relationship between
the prices Defendants ask, quote, or charge for
coins and the market values of such coins;
(5) Falsely representing in any manner, directly
or by implication, the relationship between
the prices Defendants ask, quote, or charge for
coins and the prices Defendants paid for such
coins;
(6) Falsely representing in any manner, directly
or by implication, the current or past market
values of coins or any investments purchased
from Defendants;
(7) Falsely representing in any manner, directly
or by implication, (a) past or likely future fi­
nancial gain of Defendants’ customers result­
ing from the purchase of coins or any
investments from Defendants, or in the na­
ture or quality of any service of Defendants in
connection with the sale of coins or any invest­
ments;
(8) Falsely representing in any manner, directly
or by implication, any other fact material to a
consumer’s decision to purchase coins or any
investments from Defendants; or
(9) Failing to disclose the following required dis­
closure when promoting, offering, or selling
coins to individuals or entities other than pro­
fessional coin dealers: “THE INVESTMENT

App. 25
VALUE OF A RARE COIN DEPENDS IN
LARGE PART ON THE PRICE YOU PAY. IT
IS STRONGLY RECOMMENDED THAT
WHEN YOU PURCHASE A RARE COIN AS
AN INVESTMENT, YOU SEEK TO DETER­
MINE ITS CURRENT MARKET VALUE
AND LIQUIDITY BY CONSULTING AN IN­
DEPENDENT COIN EXPERT.”
The required disclosure shall be made by Defendants
in all sales brochures pertaining to coins and on the
front side of all documents sent by Defendants to
acknowledge orders and or funds received from coin
purchasers other than professional coin dealers. The
required disclosure shall be set forth in a clear and
prominent manner, separated from all other text, in
100% black ink against a light background, in Print at
least as large as the main text of the brochure or docu­
ment, and enclosed in a box containing only the re­
quired disclosure. Before consummating any coin sale
to a customer, other than a professional coin dealer,
Defendants shall obtain a signed declaration from the
customer that recites the required disclosure and then
states that the customer has read and understands the
required disclosure.
III.
PRESERVATION OF RECORDS
IT IS FURTHER ORDERED that, for five (5) years
after the date of entry of this Order, Defendants, indi­
vidually and through their agents, and all business
entitles owned, managed, or controlled by Defendants,

App. 26
are hereby restrained and enjoined from destroying,
mutilating, changing, concealing, altering, transfer­
ring, or otherwise disposing of, in any manner, directly
or indirectly, any records, whether written or in com­
puter maintained form, that relate to the purchase,
promotion, offering, trading, sale, resale, or remarket­
ing of (i) coins, or (ii) any investments, by Defendants,
directly, or through their agents, or by any business
entity owned, managed, or controlled by Defendants.
Defendant TGM and Defendant Blodgett are each fur­
ther restrained and enjoined, for five (5) years after the
date of entry of this Order, from:
(1) Failing to make and keep records of all sales
of coins, and all sales of investments, made by
such Defendant directly or through agents, or
made by any business entity owned, managed,
or controlled by such Defendant. The record
maintained for each such sale shall include
the name and address of the purchaser, the
date of sale a description identifying the par­
ticular coin (including the type, year, mint,
grade, and certification number if any) or in­
vestment sold, and the price paid by the pur­
chaser.
(2) Failing to keep copies of all written promo­
tional materials, and all correspondence with
customers or prospective customers, that re­
late to the sale or proposed sale of coins, or to
the sale or proposed sale of any investments,
by such Defendant, directly or through agents,
or by any business entity owned, managed, or
controlled by such Defendant.

App. 27
(3) Failing to make and keep books, cash dis­
bursements and receipts ledgers, accountants’
reports, and account statements which, in rea­
sonable detail, accurately and fairly reflect
the assets, liabilities, owners equity, sources of
revenue, expenses, and dispositions of assets
of all business entities owned, managed, or
controlled by such Defendant.
IV.
NOTIFICATION TO THE COMMISSION
IT IS FURTHER ORDERED that, within thirty
(30) days of his (i) becoming affiliated (in any capacity)
with a business entity, the activities of which include
the offering, promotion, or sale of coins or the offering,
promotion, or sale of any investments, or (ii) undertak­
ing any new business venture in which his own activi­
ties include the offering, promotion, or sale of coins or
the offering, promotion, or sale of any investments,
Blodgett shall provide the Commission with notifica­
tion of the new affiliation or undertaking, including the
name, address and telephone number of the business
entity or venture, a description of the nature and ac­
tivities of the business entity or venture, and a descrip­
tion of Blodgett’s position and responsibilities in the
business entity or venture. Blodgett shall also provide
the Commission with written notification of each
change in his home address, business address, or em­
ployment status, within thirty (30) days of each such
change. TGM shall provide the Commission with writ­
ten notification of each change in its principal business

App. 28
address, within thirty (30) days of each such change.
Written notifications to the Commission pursuant to
this Paragraph shall be addressed to:
Associate Director for Service Industry Practices
Bureau of Consumer Protection
Room 200
Federal Trade Commission
Pennsylvania Ave. and Sixth St., N.W.
Washington, DC 20580
This Paragraph shall remain in effect for five (5) years
after the date of entry of this Order.
V.
NOTIFICATIONS TO BUSINESS ASSOCIATES
IT IS FURTHER ORDERED that Defendants
shall provide a copy of this Order to each of their cur­
rent directors, officers, employees, account executives,
sales executives, salespersons, sales representatives,
and sales agents. In addition, for five (5) years after the
date of entry of this Order, Defendants shall provide a
copy of this Order to each person who, and to each busi­
ness entity acting for or on behalf of Defendants or un­
der Defendants’ direction, management, or control, (a)
offers, promotes, or sells coins or any investments, ex­
cept (i) SEC-registered securities offered or sold by li­
censed broker-dealers or (ii) Defendant Blodgett’s
company, or (b) makes, keeps, or maintains records
described in paragraph III, subparagraphs (1), (2), or
(3) of this Order. Upon providing a copy of this Order
pursuant to this Paragraph, Defendants shall obtain
and keep a signed statement from the recipient

App. 29
acknowledging receipt. Should any recipient fail or re­
fuse to provide Defendants with a signed statement ac­
knowledging receipt, Defendants shall prepare and
keep a sworn statement that a copy of this letter has
been provided to such recipient. Statements obtained
or prepare pursuant to this Paragraph shall be kept by
Defendants for five (5) years after the date of. entry of
this Order.
VI.
MONITORING PROVISIONS
IT IS FURTHER ORDERED that, in order to fa­
cilitate the Commission’s monitoring of compliance
with the provisions of this Order, Defendants shall for
a period of five (5) years after entry of this Order:
(1) Permit duly authorized representatives of the
Commission, within five (5) business days of
receipt of written notice from the Commis­
sion, access during normal business hours to
inspect and copy any documents or records re­
ferred to by Paragraphs III or V of this Order;
(2) Produce, within twenty (20) business days of
receipt of a written request from the Commis­
sion, any documents or records referred to by
Paragraphs III or V of this Order;
(3) Refrain from interfering with efforts by Com­
mission employees to contact and interview
Defendants’ agents and employees (who may
have counsel present) regarding conduct sub­
ject to this Order.

App. 30
VII.
T. G. MORGAN SETTLEMENT ESTATE
IT IS FURTHER ORDERED that the Defendants
and the non-party spouse of Defendant, as of the date
of entry of this Order, hereby transfer to the Commis­
sion, irrevocably and without the possibility of rever­
sion to themselves or to any entity owned or controlled
by them, any and all title, ownership, rights, interests,
and options, present or future, that they, or any entity
owned or controlled by them, have in the following as­
sets:
1.

All real property in Florida, including:
Residential lot, Ocean Reef Club, Key
Largo, Florida, legally described as: Lot 3,
Block 5, of HARBOR COURSE SOUTH,
Section 1, according to the plat thereof,
recorded in Plat Book 7, at Page 6 of the
Public Records of Monroe County, Flor­
ida.
Three bedroom Condominium Unit 7, An­
glers Club, Key Largo, Florida, legally de­
scribed as: Unit Number 7 ANGLERS
CLUB, a condominium, according to the
Declaration of Condominium thereof, rec­
orded in Official Records Book 1028, Page
2375 of the Public Records of Monroe
County, Florida, and any amendments
thereto. SUBJECT TO: Any unpaid taxes
for the year 1989 and subsequent years.
Right of exclusive use in and to Dock
Space Number D-10, a limited common

App. 31
element of Anglers Club, a Condominium,
which is appurtenant to Unit 7, as de­
scribed and governed by the Declaration
of Condominium, thereof, recorded in
Official Records Book 1028, Page 2375 of
the Public Records of Monroe County,
Florida and any amendments thereto.
2.

1984, 23-foot Cutty Cabin Sunrunner
boat (stored by Defendant Blodgett at
Rockvam Marina, Lake Minnetonka,
Minnesota), listed in the Financial State­
ment of Michael Blodgett, dated January
14, 1992.

3.

1988 Mercedes 560 SL owned by nonparty spouse of Defendant.

4.

1852/1 Humbert PR65 $20
PCGS No. 10194.65/9114237),
Silver Dollar PCGS No.
3066420), and 1880 PF65 $4
(NGC No. 135492-020).

5.

All coins and coin holders presently in the
possession of the Postal Inspector, St.
Paul, Minnesota.

6.

Two (2) Simbari original paintings kept
in Defendant Blodgett’s home.

7.

All assets listed on Exhibit “A” attached
herein.

gold coin
1895 PR67
07330.67/
Flow Melt

All possession and control that the Defendants and the
non-party spouse of Defendant have, directly or indi­
rectly, present or future, with respect to the foregoing
assets shall be immediately transferred to (or retained

App. 32
by) Armen R. Vartian, who is hereby appointed Re­
ceiver of the T.G. Morgan Settlement Estate (the “Set­
tlement Estate”), with the full power of an equity
receiver to hold, manage, and dispose of the foregoing
assets under the supervision of the Court. The Defend­
ants, and the non-party spouse of Defendant, shall pre­
serve and protect all such assets in their possession or
control until the Receiver is able to assume actual pos­
session or control. The Settlement Estate shall consist
of all of the assets listed in this Paragraph with respect
to which possession and/or control have been trans­
ferred to the Receiver. The Defendants and the nonparty spouse of Defendant hereby waive any and all
claims that they, or entities owned or controlled by
them, may have to the foregoing assets and are hereby
ordered to execute and/or transfer, within three (3)
business days of the Receiver’s request, any documents
determined by the Receiver to be necessary or desira­
ble to effectuate, evidence, or consummate the trans­
fers of the foregoing assets.
VIII.
T. C. MORGAN LITIGATION ESTATE
IT IS FURTHER ORDERED that all possession
and control that the Defendants and the non-party
spouse of Defendant have, directly or indirectly, pre­
sent or future, with respect to the following assets
shall be immediately transferred to (or retained by)
Armen R. Vartian, who is hereby appointed Receiver
of the T.G. Morgan Litigation Estate (the “Litigation

App. 33
Estate”), with the full power of any equity receiver to
hold, manage, and dispose of the following assets un­
der the supervision of the Court;
1.

All funds (not including coins) presently
held in the Coin Fund establishing pur­
suant to the Stipulated Order for Interim
Receiver previously entered in this case.

2.

Coins held for Defendants at Safrabank,
Encino, California that are listed on Ex­
hibit “B” attached hereto. Defendants’ li­
ability shall not increase on account of
listed coins not being present at Safra­
bank. Any coins held at Safrabank on be­
half of Defendants that have not been
previously disclosed to the Commission
by Safrabank shall be included in the Lit­
igation Estate.

The Litigation Estate shall consist of all the assets
listed in this Paragraph with respect to which posses­
sion and/or control have been transferred to the Re­
ceiver. The Defendants and non-party spouse of
Defendant are hereby ordered to execute and/or trans­
fer, within three (3) business days of the Receiver’s re­
quest, any documents determined by the Receiver to be
necessary or desirable to effectuate, evidence, or con­
summate the transfers of the assets listed in this Par­
agraph.

App. 34
IX.
LIQUIDATION OF ASSETS
IT IS FURTHER ORDERED that the Receiver is
charged by the Court with conducting an orderly liqui­
dation of (i) the Commission’s interests in the assets of
the Settlement Estate, and (ii) the Defendants’ and the
Defendant’s non-party spouse’s interests in the assets
of the Litigation Estate.
(A) In the event that an asset of the Settlement
Estate or the Litigation Estate is determined
by the Receiver to secure a bona fide debt,
other than a debt to Defendants or to the nonparty spouse of Defendant, or to an entity
owned or controlled by them, the Receiver
shall apply the proceeds from liquidation of
the asset to satisfaction of the secured debt,
while retaining the balance of such proceeds
in the Estate, unless for good cause shown the
Court approves a different disposition of the
proceeds.
(B) In the event that a specific asset of the Settle­
ment Estate or the Litigation Estate is deter­
mined by the Receiver to have been entirely
owned by or to have been entirely paid for by
a retail customer of Defendants as of August
25,1991, and has not been transferred by such
customer, the Receiver shall transfer the asset
to the retail customer, unless for good cause
shown the Court approves a different disposi­
tion of the asset.
(C) In the event that a specific coin in the Settle­
ment Estate or the Litigation Estate is

App. 35
determined by the Receiver to have been paid
for, in whole or in part, by a retail customer
of Defendants on or after August 26,1991, and
before December 1, 1991, the Receiver shall
pay to each such retail customer, to the extent
that sufficient funds are available in the Set­
tlement Estate, a refund from the Settlement
Estate equaling the total amount the cus­
tomer paid for such coin at any time before
December 1, 1991, less any funds already re­
funded to the customer by Defendants or by
the Interim Receiver; however, for good cause
shown, the Court may approve a different re­
fund amount, no refund, or the delivery to the
customer of the coin paid for.
(D) In the event that ownership of, rights to, or in­
terest in an asset of the Settlement Estate or
the Litigation Estate is found by the Receiver,
to be joint, shared, undetermined, unknown,
or the object of a bona fide and reasonable dis­
pute, the Receiver shall prepare a report for
the Court, with copies to the parties, setting
forth (1) a description of the asset in question,
(ii) the facts pertaining to the issue of owner­
ship of, rights to, or interest in the asset, and
(iii) a proposed disposition of the asset; such
an asset shall be disposed of only in accord­
ance with a disposition proposal that has been
approved by the Court, PROVIDED, however,
that the Receiver may immediately recognize,
honor, and dispose of partnership interests
that have existed in specific coins since prior
to August 26, 1991, upon satisfactory docu­
mentary proof of the partnership interests,
except that the Receiver shall retain any and

App. 36
all partnership interests of Defendants or the
non-party spouse of Defendant, or of any en­
tity owned or controlled by them.
(E) Except as set forth in IX(B) and IX(C) above,
the Receiver shall not attempt to compensate
individuals and/or entities, including retail
customers of Defendants, for actual or alleged
injuries and/or losses resulting from transac­
tions with Defendants or with entities under
their control. As a condition of receiving final
payment of a secured debt pursuant to IX(A),
receiving delivery of an asset pursuant to
IX(B), or receiving a refund of money pursu­
ant to IX(C), recipients shall be required,
unless for good cause shown the Court deter­
mines otherwise, to execute releases waiving
all claims against the Receiver, Defendants,
the non-party spouse of Defendant, their offic­
ers, directors, employees, and agents, arising
from any failure to pay such secured debt, fail­
ure to deliver such asset, or failure to refund
such money.
(F) The term “retail customer” in IX(B) and IX(C)
above shall be deemed not to include Defen­
dants or the non-party spouse of Defendant,
or any entity owned or controlled by them.
X.
POWERS OF THE RECEIVER
IT IS FURTHER ORDERED that the Receiver of
the Settlement Estate and the Litigation Estate is
hereby authorized:

App. 37
(1) To make such payments, investments, and
disbursements;
(2) To borrow and receive such funds;
(3) To select, employ, and engage such employees,
contractors and agents, including but not lim­
ited to coin auction companies and coin deal­
ers;
(4) To exercise such legal rights and options; and
(5) To institute, prosecute, defend, compromise,
and intervene in or become a party to such ac­
tions or proceedings in state or federal courts,
including bankruptcy courts;
as may be necessary and advisable to determine, pre­
serve, maintain, and protect all bona fide interests in
the tangible and intangible assets of the Settlement
Estate and the Litigation Estate, to liquidate and
maximize the liquidated value of the Commission’s in­
terests in the tangible and intangible assets of the
Settlement Estate, to liquidate and maximize the liq­
uidated value of the Defendants’ and the Defendant’s
non-party spouse’s interest in the tangible and intan­
gible assets of the Litigation Estate, to protect the
interests of the Defendants’ retail customers, and oth­
erwise to discharge his duties as Receiver. Defendant
T.G. Morgan, Inc. shall, upon request, provide the Re­
ceiver with any and all available information, and ac­
cess to any and all documents and records in its care,
custody, or control, that may assist the Receiver in de­
termining the location, possession, ownership of, rights
to, or interests in, the assets of the Settlement Estate

App. 38
and the Litigation Estate. The Receiver shall neither
represent nor act on behalf of the Defendants or the
Defendant’s non-party spouse.
XI.
DISTRIBUTION OF THE SETTLEMENT ESTATE
IT IS FURTHER ORDERED that the Commis­
sion’s liquidated interests in the assets of the Settle­
ment Estate shall be distributed by the Receiver as
follows:
(1) First, reasonable fees to compensate the Re­
ceiver, upon Court approval of itemized fee ap­
plications by the Receiver, with opportunity
for all parties to be heard.
(2) Second, all remaining funds to establish and
fund a T.G. Morgan Redress Fund (“Redress
Fund”) to be transferred to the control of and
administered by the Commission or its
agents, and to be (i) distributed to retail cus­
tomers who purchased coins from Defendants
and/or (ii) paid over to the U.S. Treasury, in
accordance with a plan submitted by the
Commission or its agents and approved by the
Court. In no event shall any portion of the
Redress Fund be paid, directly or indirectly,
to Defendants or to the non-party spouse of
Defendant, or to any entity owned or con­
trolled by them. Costs of administering and
distributing the Redress Fund shall be paid
from the Redress Fund, including the cost of
determining customers’ shares of the distri­
bution. Defendant T.G. Morgan, Inc. shall,

App. 39
upon request, provide the Commission or its
agents with any and all available information,
and access to any and all documents and rec­
ords, that may assist the Commission or its
agents in determining the assets within their
control and prohibit the withdrawal, removal,
assignment, encumbrance, dissipation, loss,
destruction, spending, sale, or other disposal
of such assets, except (i) by the Receiver in
accordance with Paragraphs VII through XII
of this Order or (ii) pursuant to further Order
of this Court.
XV.
RETENTION OF JURISDICTION
IT IS FURTHER -ORDERED that the Court re­
tains jurisdiction of this matter for purposes of con­
struction, modification and enforcement of this Order.
The Consent Orders, Modification of Consent Orders,
and Stipulated Order for Interim Receiver earlier en­
tered in this action are hereby superseded by this Or­
der.
The parties hereby stipulate and agree to entry of
the foregoing Order which shall constitute a final judg­
ment in this action. Defendants hereby waive any
claim they may have under the Equal Access to Justice
Act, 28 U.S.C. § 2412, concerning the prosecution of
this action through the date of this Order.

App. 40
STIPULATED AND CONSENTED TO:
DEFENDANTS:

APPROVED AS TO FORM:

/s/ Michael W. Blodgett
Michael W. Blodgett,
individually

/s/ James H. Gilbert
Ronald I. Meshbesher
James H. Gilbert
MESHBESHER &
SPENCE, LTD.
1616 Park Avenue
Minneapolis, MN 55404
(612) 339-9121

/s/ Michael W. Blodgett
Michael W. Blodgett,
as president of
T. G. Morgan, Inc.,
for T. G. Morgan, Inc.

ATTORNEYS FOR
DEFENDANTS
NON-PARTY SPOUSE:

APPROVED AS TO FORM:

/s/ Diane Blodgett
Diane Blodgett, nonparty spouse of Michael
W. Blodgett, as to her
marital, non-marital and
other rights being relin­
quished pursuant to this
settlement, as specified
herein

/s/ Douglas A. Kelley
Douglas A. Kelley
701 Fourth Avenue South
Minneapolis, MN 55415
(612) 337-9594
ATTORNEYS FOR
DIANE BLODGETT

App. 41
PLAINTIFF:
/s/ Connie Wagner
David C. Fix
Bennett Rushkoff
Hugh G. Stevenson
Connie Wagner
Federal Trade Commission
Pennsylvania Ave. and
6th St., N.W.
Washington, DC 20580
(202) 326-3439
ATTORNEYS FOR
PLAINTIFF

/s/ Jerome Getz/RP
Jerome Getz
Tracy Smith
Minnesota Attorney
General’s Office
200 Ford Building
117 University Avenue
St. Paul, MN 55155
(612) 296-2367
ATTORNEYS FOR
PLAINTIFF

IT IS SO ORDERED.
Dated:

3/4/92

/s/ Diana J. Murphy, Judge
UNITED STATES DISTRICT
JUDGE

EXHIBIT A
Historical Documents:
Confederate Bond dated February 20, 1863, acquired
for $550.
Niles Weekly, Newspaper articles dated June 6, 1834
and December 12, 1829, acquired for $150 (total).
Monroe document, acquired for $3,950.

App. 42
EXHIBIT B
1880-0 MS65 Morgan Silver Dollar
1892-S MS65 Morgan Silver Dollar
$1 Grant with Star MS65
Two 1890-CC MS65DMPL Morgan Silver Dollars
$1 1851 MS65
Three $3 Gold Indians MS65
Two 1884-CC MS66DMPL Morgan Silver Dollars
Two $2.50 Indian PR65
$2.50 Indian PR66
1878-7T R78 MS65DMPL Morgan Silver Dollar
Lincoln VDE
SLVR TYPE 3
$.03
$.05
SHIELD N/R
$.05
LIBERTY W/C
$.05
LIBERTY W/C
$.05
BUFFALO 1934
$.05
BUFFALO 1934-D
$.05
BUFFALO 1935
BUFFALO 1935-D
$.05
$.05
BUFFALO 1936
$.05
BUFFALO 1937
$.05
BUFFALO 1937-D
$.05
BUFFALO 1937-S
$.05
BUFFALO 1938-D
HALF $.10 STARS
HALF $.10 LEG
$.10
DRPE BUST SM
$.01

63RD

(1)

65
65PR
65
65PR
65
65
65
65
65
65
65
65
65
65
65PR
65

(1)
(7)
(1)
(9)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)

App. 43
$.10
$.10
$.10
$.10
$.25
$.25
$.25
$.25
$.25
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50

CAP BUST SM
LEGEND
BARBER
BARBER
NO MOTTO
WITH MOTTO
BARBER
BARBER
BARBER
BARBER
BARBER
BARBER
BARBER
W LIB 1941
WLK LB 1941-D
WLR LB 1941-S
W LIB 1942
W LIB 1942-D
WLK LB 1943
W LIB 1943-D
WLK LIB 1943-S
WLK LB 1944
WLK LB 1944-D
WLK LIB 1944-S
WLK LB 1945
WLK LIB 1945-D
WLK LIB 1945-S
WLK LIB 1946
W.L. 1946-D
W LIB 1946-S
WK LIB 1947

65
65PR
65PR
66PR
66
66
66
65PR
66PR
65
66
65PR
67PR
64
64
64
64
64
64
64
64
64
64
64
64
64
64
64
64
64
64

(1)
(6)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)

App. 44
$.50
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

WLK LIB 1947-D
64
WITH MOTTO
66
NO MOTTO
64PR
MORG 1878 8TF
65
MORG 1878 7T REV 78 65
MORG 1878 7T REV 78 65PL
MORG 1878 7T REV 79 65
MORG 1878 7/8 TF
65
MORG 1878-CC
65PL
MORG 1878-S
65
MORG 1878-S
66
65
MORG 1879
CAPP DIE 1879-CC
64
MORG 1879-S
65
MORG 1879-S
66
MORG 1879-S REV 78
65
MORG 1880
65PL
MORG 1880-CC
65
MORG 1880-CC
65PL
MORG 1880-CC REV 78 66
MORG 1880-S
65
66
MORG 1880-S
MORG 1880-S
67
MORG 1880-S
65PL
MORG 1881
65
MORG 1881-CC
65
MORG 1881-CC
66
MORG 1881-0
65
MORG 1881-S
65
66
MORG 1881-S
MORG 1881-S
67

(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(3)
(2)
(3)
(1)
(3)
(5)
(2)
(5)
(1)
(5)
(1)
(1)
(1)
(1)
(1)

App. 45
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

MORG 1881-S
MORG 1881-S
MORG 1882
MORG 1882-CC
MORG 1882-CC
MORG 1882-CC
MORG 1882-0
MORG 1882-0
1882-O/S
MORG 1882-S
MORG 1882-S
MORG 1882-S
MORG 1882-S
MORG 1883
MORG 1883-CC
MORG 1883-CC
MORG 1883-CC
MORG 1883-CC
MORG 1883-0
MORG 1884
MORG 1884
MORG 1884-CC
MORG 1884-CC
MORG 1884-0
MORG 1884-S
MORG 1885
MORG 1885
MORG 1885-CC
MORG 1885-CC
MORG 1885-CC
MORG 1885-0

65PL
66PL
65
65
66
65PL
65
65PL
63
65
66
65PL
65PL
65
65
66
65PL
66PL
65
65
65PL
65
66
65
65
65
66
65
66
66PL
65

(1)
(1)
(1)
(3)
(1)
(3)
(1)
(1)
(1)
(6)
(2)
(3)
(1)
(1)
(14)
(2)
(1)
(1)
(1)
(2)
(1)
GO)
(2)
(4)
(1)
(1)
(1)
(5)
(1)
(1)
(7)

App. 46
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

MORG 1885-0
MORG 1885-S
MORG 1886
MORG 1886-S
MORG 1886-S
MORG 1887
MORG 1887/6
MORG 1887-0
MORG 1887-S
MORG 1888
MORG 1888
MORG 1888-0
MORG 1888-0
MORG 1888-S
MORG 1889
MORG 1889-0
MORG 1889-S
MORG 1889-S
MORG 1890
MORG 1890-CC
MORG 1890-0
MORG 1891
MORG 1891-CC
MORG 1891-S
MORG 1891-S
MORG 1892
MORG 1892-CC
MORG 1892-CC
MORG 1892-0
MORG 1893
MORG 1893-0

66PL
66
65
65
65PL
65
65
65
65
65
65PL
65
65PL
65
65
65
65
66
65
65
65
66
65
65
65PL
65
65
65PL
65
65
64

(1)
(1)
(1)
(1)
(3)
(3)
(1)
(1)
(1)
(1)
(1)
(1)
(3)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)

App. 47
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

MORG 1893-S
MORG 1894
MORG 1894-S
MORG 1894-S
MORG 1895-S
MORG 1896
MORG 1896-S
MORG 1897
MORG 1897-S
MORG 1898
MORG 1898-0
MORG 1898-0
MORG 1898-S
MORG 1899
MORG 1899-0
MORG 1900
MORG 1900-0
MORG 1900-0/CC
MORG 1900-S
MORG 1900-S
MORG 1901-0
MORG 1901-0
MORG 1901-0
MORG 1901-S
MORG 1902
MORG 1902
MORG 1902
MORG 1902-0
MORG 1903
MORG 1903-0
MORG 1903-S

65
66
65
66
64
65
65
65
65
65
65
66
65
65
65
65
65
65
65
66
65
66
65PL
65
65
65PL
65
65PL
65
65
65

(1)
(2)
(1)
(1)
(1)
(1)
(2)
(2)
(1)
(2)
(7)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(2)

App. 48
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

MORG 1904-0
MORG 1904-0
MORG 1904-0
MORG 1904-S
MORG 1904-S
MORG 1921
MORG 1921
MORG 1921-D
MORG 1921-S
MORG 1883
MORG 1890
MORG 1891
MORG 1892
MORG 1892
MORG 1894
MORG 1895
MORG 1896
MORG 1879-0
PEACE 1921
PEACE 1921
PEACE 1922
PEACE 1922
PEACE 1922-D
PEACE 1922-S
PEACE 1922-S
PEACE 1923
PEACE 1923
PEACE 1923-D
PEACE 1923-D
PEACE 1923-S
PEACE 1923-S

65
65PL
66PL
65
65PL
65
65PL
65
65
65PR
65PR
65PR
65PR
66PR
66PR
65PR
66PR
64PR
65
66
65
66
65
65
66
65
66
65
66
64
65

(2)
(3)
(1)
(3)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(3)
(1)
(2)
(1)
(1)
(1)
(1)
(2)
(2)
(1)
(1)

App. 49
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

PEACE-1924
PEACE 1924
PEACE 1924-S
PEACE 1924-S
PEACE 1925
PEACE 1925
PEACE 1925-S
PEACE 1926-S
PEACE 1926
PEACE 1926-D
PEACE 1926-D
PEACE 1926-D
PEACE 1926-S
PEACE 1927
PEACE 1927
PEACE 1927-D
PEACE 1927-S
PEACE 1927-S
PEACE 1928
PEACE 1928-S
PEACE 1928-S
PEACE 1934
PEACE 1934-D
PEACE 1934-D
PEACE 1934-S
PEACE 1934-S
PEACE 1935
PEACE 1935
PEACE 1935-S
PEACE 1935-S
JEFFERSON 1903

65
66
64
65
65
66
65
65
66
65
66
67
65
64
65
65
64
65
65
64
65
65
65
66
64
65
65
66
65
66
65

(1)
(1)
(1)
(1)
(2)
(2)
(2)
(2)
(2)
(1)
(1)
(1)
(2)
(1)
(3)
(1)
(1)
(1)
(2)
(1)
(2)
(2)
(1)
(1)
(1)
(1)
(2)
(1)
(2)
(2)
(1)

App. 50
$1
$1
$2.50
$1
$1
$1
$1
$1
$1
$1
$2.50
$2.50
$2.50
$2.50
$2.50
$2.50
$4
$10
$10
$20
$20
$20
$20
$20
$20
$20
$20
$20
$20
$20
$20

MC KINLEY 1903
LEWIS/CLARK 1904
PAN-PAC
MC KINLEY 1916
MC KINLEY 1917
GRANT NO STARS
LIBERTY TYPE 1
LIBETY 1851-C
INDIAN T-2
INDIAN T-3
LIBERTY
LIBERTY
INDIAN
INDIAN
INDIAN
INDIAN
STELLA
INDIAN
INDIAN
LIBERTY
LIBERTY
ST GD 1908 NM
ST GAUD 1911-D
ST GAUD 1914-D
ST GAUD 1915-S
ST GAUD 1916-S
ST GAUD 1923-D
ST GAUD 1924
ST GAUD 1925
ST GAUD 1926
ST GAUD 1927

65
65
65
65
65
65
65
66
65
65
65
66
65
66
65
66
PR66
65
65
64
65
65
65
65
65
65
65
65
65
64
64

(2)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(ID
(1)
(3)
(1)
(2)
(1)
(1)
(2)
(1)
(1)
(27)
(4)
(5)
(1)
(1)
(4)
(3)
(45)
(19)
(4)
(2)

App. 51
$20
$20
$.25
$1
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50

ST GAUD 1927
ST GAUD 1928
ISABELLA
LAFAYETTE
ALABAMA 1921
ALABAMA 2X2
ALBANY 1936
ANTIETAM1937
ARK 1935
ARK 1935-D
ARK 1935-S
ARK 1936
ARK 1936-D
ARK 1936-S
ARK 1937
ARK 1937-D
ARK 1937-S
ARK 1938
ARK 1938-D
ARK 1938-S
ARK 1939
ARK 1939-D
ARK 1939-S
BAYBRIDGE 1936
BOONE 1934
BOONE 1935
BOONE 1935-S
BOONE 1935/34
BOONE 1936
BOONE 1936-D
BOONE 1936-S

66
65
65
64
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65

(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(1)

App. 52
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50

BOONE 1937
BOONE 1937-D
BOONE 1938
BOONE 1938-S
BRIDGEPORT 1936
CA1925
CIN1936
CIN 1936-D
CIN 1936-S
CLEVELAND 1936
COLUMBIA 1936
COLUMBIA 1936-D
COLUMBIA 1936-S
COLUMBIAN 1892
COLUMBIAN 1893
CONNECTICUT
DELAWARE 1936
ELGIN 1936
GETTYSBURG
GRANT N/STRS
GRANT W/STRS
HUDSON 1935
HUGUENOT 1924
IOWA 1946
LEXINGTON
LINCOLN 1918
LONG ISLAND
LYNCHBURG
LYNCHBURG
LYNCHBURG
MAINE 1920

65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
66
67
65

(1)
(1)
(1)
(1)
(1)
(3)
(1)
(3)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(2)
(2)
(1)
(3)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(2)
(1)
(1)
(1)
(1)

App. 53
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50

MARYLAND
MISSOURI
MISSOURI 2X4
NEW ROCHELLE
NORFOLK 1936
OREGON 1926
OREGON 1928
OREGON 1933-D
OREGON 1934-D
OREGON 1936
OREGON 1937-S
OREGON 1938
OREGON 1938-D
OREGON 1938-S
OREGON 1939-S
PILG1920
PILG 1920
PILG 1921
R.1.1936
R.1.1936-D
R.1.1936-S
ROANOKE 1937
ROBINSON 1936
ROBINSON 1936
S DIEGO 1935-S
S DIEGO 1936-D
SESQUI
SPAN TRAIL
STN MT 1925
TEXAS 1934
TEXAS 1935

65
65
65
65
65
65
65
65
65
65
65
65
55
65
65
65
67
65
65
65
65
65
65
67
65
65
65
65
65
65
65

(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(2)
(2)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)

App. 54
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50
$.50

TEXAS 1935-D
TEXAS 1935-S
TEXAS 1936
TEXAS 1936-D
TEXAS 1936-S
TEXAS 1937
TEXAS 1937-D
TEXAS 1937-S
TEXAS 1938
TEXAS 1938-D
TEXAS 1938-S
VANCOUVER 25
VERMONT 1927
BTW1946
BTW 1946-S
BTW 1947-S
BTW 1948
BTW 1948-D
BTW 1950-S
BTW 1951
WASH CARV 1951
WASH CARV 1951-D
WASH CARV 1951-S
WASH CARV 1952
WASH CARV 1952-D
WASH CARV 1952-S
WASH CARV 1953
WASH CARV 1953-D
WASH CARV 1953-S
WASH CARV 1954
WASH CARV 1954-D

65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65
65

(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(1)
(11)
(39)
(115)
(80)
(21)
(95)
(31)
(16)
(103)
(52)
(31)

App. 55
$.50
$.50
$.50
$.50
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

WASH CARV 1954-S
WISCONSIN 1936
YORK 1936
MOR 1878 7T REV 78
MORG 1879-S
MORG 1879-S
MORG 1880-S
MORG 1880-S
MORG 1881-CC
MORG 1881-S
MORG 1882
MORG 1882-CC
MORG 1883
MORG 1883-CC
MORG 1883-CC
MORG 1883-0
MORG 1884-CC
MORG 1884-0
MORG 1884-0
MORG 1885
MORG 1885
MORG 1885-CC
MORG 1885-0
MORG 1885-0
MORG 1886
MORG 1887
MORG 1888
MORG 1888-0
MORG 1890-CC
MORG 1896
MORG 1897

65
65
65
65DM
65DMPL
66DMPL
65DMPL
66DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
64DMPL
65DMPL
65DMPL
65DMPL
65DMPL
66DMPL
65DMPL
66DMPL
65DMPL
65DMPL
66DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL

(122)
(1)
(1)
(1)
(5)
(2)
(23)
(2)
(10)
(5)
(1)
(9)
(4)
(1)
(36)
(5)
(25)
(16)
(1)
(39)
(1)
(3)
(15)
(2)
(9)
(12)
(6)
(4)
(1)
(2)
(2)

App. 56
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1
$1

MORG 1897-S
MORG 1898
MORG 1898-0
MORG 1899
MORG 1899-0
MORG 1899-0
MORG 1903-0
MORG 1904-0
MORG 1881-S
MORG 1885-CC
MORG 1886
MORG 1887
MORG 1904
INDIAN T-3
MORG 1878-S
MORG 1880
MORG 1880-S
MORG 1881-CC
MORG 1861-S
MORG 1882-CC
MORG 1882-S
MORG 1883-CC
MORG 1883-CC
MORG 1884
MORG 1884-0
MORG 1885
MORG 1885-0
MORG 1886
MORG 1896
MORG 1897-S
MORG 1899-0

65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
66DMPL
65DMPL
65DMPL
65PL
65
65
65
65
65
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
66DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL
65DMPL

(2)
(2)
(13)
(3)
(6)
(2)
(1)
GO)
(1)
(1)
(2)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(2)
(1)
(1)
(1)
(2)
(2)
(1)

App. 57
$1
$1
$20

MORG1900-0
MORG 1904-0
ST GUD H.R

65DMPL
65DMPL
63

(3)
(2)
(1)

App. 58
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,
Defendants.
APPROVAL OF MODIFICATION TO
PROPOSED FINAL JUDGMENT
The undersigned hereby consents to Paragraph
XIV of the Final Judgment And Order For Permanent
Injunction And For Settlement Of Claims For Mone­
tary Relief (Final Judgment) being changed to read as
follows:
“IT IS FURTHER ORDERED that all individuals
and entities in possession or control of assets listed or
described in Paragraphs VII or VIII of this Order shall
hold, preserve, and retain such assets within their con­
trol and prohibit the withdrawal, removal, assignment,
encumbrance, dissipation, loss, destruction, spending,
sale, or other disposal of such assets, except (i) by the
Receiver in accordance with Paragraphs VII through
XII of this Order or (ii) pursuant to further Order of
this Court.”

App. 59
The undersigned understands that the Commis­
sion staff will effect this language change by substitut­
ing a new page 21 in the Final Judgment and that, in
the event the Commission approves the proposed set­
tlement of this case, the new page 21 will be part of the
Final Judgment to be submitted to the Court for entry
in this case.
/s/ James H. Gilbert
James H. Gilbert
DATED:

Attorney for T. G. Morgan
Inc., Michael W. Blodgett

App. 60
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,
Defendants.
APPROVAL OF MODIFICATION TO
PROPOSED FINAL JUDGMENT
The undersigned hereby consents to Paragraph
XIV of the Judgment And Order For Permanent In­
junction And For Settlement Of Claims For Monetary
Relief (Final Judgment) being changed to read as fol­
lows:
“IT IS FURTHER ORDERED that all individuals
and entities in possession or control of assets listed or
described in VII or VIII of this Order shall hold, pre­
serve, and retain such assets within their control and
prohibit the withdrawal, assignment, encumbrance,
dissipation, loss, destruction, spending, sale, or other
disposal of such assets, except (i) by the Receiver in ac­
cordance with Paragraphs VII through XII of this Or­
der or (ii) pursuant to further Order of this Court.”
The undersigned understands that the Commis­
sion staff will effect this language change by

App. 61
substituting a new page 21 in the Final Judgment and
that, in the event the Commission approves proposed
settlement of this case, the new page 21 will be part of
the Final Judgment to be submitted to the Court for
entry in this case.
/s/ Douglas A. Kelley
Douglas A. Kelley
DATED:

Attorney for Diane Blodgett

App. 62
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,
Defendants.
APPROVAL OF MODIFICATION TO
PROPOSED FINAL JUDGMENT
The undersigned hereby consents to Paragraph
XIV of the Final Judgment And Order For Permanent
Injunction And For Settlement Of Claims For Mone­
tary Relief (Final Judgment) being changed to read as
follows:
“IT IS FURTHER ORDERED that all individuals
and entities in possession or control of assets listed or
described in Paragraphs VII or VIII of this Order shall
hold preserve, and retain such assets within their con­
trol and prohibit the withdrawal, removal, assignment,
encumbrance, dissipation, loss, destruction, spending,
sale, or other disposal of such assets, except (i) by the
Receiver in accordance with Paragraphs VII through
XII of this Order or (ii) pursuant to further Order of
this Court.”

App. 63
The undersigned understands that the Commis­
sion staff will effect this language change by substitut­
ing a new page 21 in the Final Judgment and that, in
the event the Commission approves the proposed set­
tlement of this case, the new page 21 will be part of the
Final Judgment to be submitted to the Court for entry
in this case.

DATED:

/s/ Michael W. Blodgett
Michael W. Blodgett, as
president of T. G. Morgan,
Inc., for T. G. Morgan, Inc.

App. 64
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,
Defendants.
APPROVAL OF MODIFICATION TO
PROPOSED FINAL JUDGMENT
The undersigned hereby consents to Paragraph
XIV of the Final Judgment And Order For Permanent
Injunction And For Settlement Of Claims For Mone­
tary Relief (Final Judgment) being changed to read as
follows:
“IT IS FURTHER ORDERED that all Individuals'
and entities in possession or control of assets listed or
described in Paragraphs VII or VIII of this Order shall
hold, preserve, and retain such assets within their con­
trol and prohibit the withdrawal, removal, assignment,
encumbrance, dissipation, loss, destruction, spending,
sale, or other disposal of such assets, except (i) by the
Receiver in accordance with Paragraphs VII through
XII of this Order or (ii) pursuant to further Order of
this Court.”

App. 65
The undersigned understands that the Commis­
sion staff will effect this language change by substitut­
ing a new page 21 in the Final Judgment and that, in
the event the Commission approves the proposed set­
tlement of this case, the new page 21 will be part of the
Final Judgment to be submitted to the Court for entry
in this case.

DATED:

/s/ Michael W. Blodgett
Michael W. Blodgett, as
president of T. G. Morgan,
Inc., for T. G. Morgan, Inc.

App. 66
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,
Defendants.
APPROVAL OF MODIFICATION TO
PROPOSED FINAL JUDGMENT
The undersigned hereby consents to Paragraph
XIV of the Final Judgment And Order For Permanent
Injunction And For Settlement Of Claims For Mone­
tary Relief (Final Judgment) being changed to read as
follows:
“IT IS FURTHER ORDERED that all individuals
and entities in possession or control of assets listed or
described in Paragraphs VII or VIII of this Order shall
hold, preserve, and retain such assets within their con­
trol and prohibit the withdrawal, removal, assignment,
encumbrance, dissipation, loss, destruction, spending,
sale, or other disposal of such assets, except (i) by the
Receiver in accordance with Paragraphs VII through
XII of this Order or (ii) pursuant to further Order of
this Court.”

App. 67
The undersigned understands that the Commis­
sion staff will effect this language change by substitut­
ing a new page 21 in the Final Judgment and that, in
the event the Commission approves the proposed settlement-of this case, the new page 21 will be part of the
Final Judgment to be submitted to the Court for entry
in this case.

DATED:

/s/ Diane Blodgett
Diane Blodgett, non-party
spouse of Michael W.
Blodgett

App. 68
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
FOURTH DIVISION
Federal Trade Commission,

Civ. No 4-91-638

Plaintiff,
v.
T.G. Morgan, Inc. and
Michael W. Blodgett,

CLARIFYING ORDER

Defendants.
The Federal Trade Commission moved for an or­
der clarifying that part of Paragraph XIII of the judg­
ment which provides that “These Financial
Statements shall be kept confidential by the Commis­
sion and shall not be disclosed to any person or entity.”
The parties filed memoranda in support of their posi­
tions, and the court asked the office of the United
States Attorney for the District of Minnesota for its in­
put. The office of the United States Attorney submitted
a memorandum, and defendant has filed a reply to this
memorandum.
The motion presents a single narrow issue for res­
olution: the meaning of Paragraph XIII of the judg­
ment. Defendants argue that the language of the
paragraph is unambiguous, so that there is no need to
go beyond it See Carl Bolander & Sons. Inc, v. United
Stockyards Corp.. 298 Minn. 428, 215 N.W.2d 473
(1974). The language of the agreement is unambigu­
ous; It prevents the Federal Trade Commission from

App. 69
turning over the financial statements to any person or
entity. It is equally unambiguous, however, that the
language does not prevent the Federal Trade Commis­
sion from complying with a court order.
A true copy in 2 sheet(s)
of the record in my custody.
CERTIFIED 8z4, 1995
Francis E. Dosal, Clerk
BY:/s/ Francis E. Dosal
ORDER
Accordingly based upon the above, and all the files,
records, and proceedings herein, IT IS HEREBY OR­
DERED that Paragraph XIII of the judgment entered
on March 4,1992 has meaning consistent with its plain
language as clarified by this order.
Date: 4/24/92
/s/

Diana E. Murphy
Diana E. Murphy
United States District Judge

App. 70
Note: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit

DIANE S. BLODGETT, TOM LINGENFELTER,
Plaintiffs-Appellants
v.
UNITED STATES,
Defendant-Appellee
2018-2398
Appeal from the United States Court of Federal
Claims in No. l:17-cv-02000-LAS, Senior
Judge Loren A. Smith.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
and Stoll, Circuit Judges.*
Per Curiam.

* Circuit Judge Hughes did not participate.

App. 71
ORDER
(Filed Feb. 19, 2020)
Appellant Diane S. Blodgett filed a combined peti­
tion for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the ap­
peal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied. The pe­
tition for en banc rehearing is denied.
The mandate of the court will issue on February
26, 2020.
For the Court
February 19. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 72

113.

After the Blodgett’s full performance on De­
cember 31,1991, and unknown to the Blodgett’s,
a Secret meeting (hereinafter, the “first known”
secret Meeting) was held at the U. S. Attorney’s
Office in Minneapolis on or about January 22,
1992. See excerpts of Vartian’s deposition, at­
tached as retyped for clarity . . . entire Vartian.
deposition attached by reference.46

114.

Evidence of statements of Government attor­
neys or coconspirators, including false affidavits
and attorney work product, and as attached will
be admissible against the interests of the Gov­
ernment under Fed. R. Evid. R. 801(d)(2)(E) and
other rules including the crime fraud exception.
See, In re: Spalding Sports Worldwide, Inc., 203
F. 3d 800, 807 (Fed. Cir. 2000) and as subject to
discovery.

115.

Among such attached direct evidence are ex­
cerpts from the 1993 deposition of FTC Receiver
Armen Vartian, which was delayed or sup­
pressed until 1994 by the Government.

116.

Mr. Blodgett was at all times material trying to
protect the fully funded, fully vested TGM
ERISA pension for both Blodgett’s and for the
vested but not yet funded beneficiaries and for
those TGM employees who would vest and
should be funded.

46 Upon information and belief this was the exact time that
Vartian, Faegre Benson’s Conn and the FTC’s Rushkoff were in
the first known secret meeting with Joan Ericksen Lancaster held
at the U. S. Attorney’s Office.

App. 73
117.

In 1994 under their divorce and a Qualified Do­
mestic Relations Order (QDRO), Mr. Blodgett
transferred all his vested, funded ERNA rights
to Ms. Blodgett, (QDRO court order attached)

118.

Prior to that QDRO and at times referenced in
Vartian’s deposition, Mr. Blodgett was acting to
try to preserve all the Blodgett TGM ERISA
pension rights and benefits. (See attached TGM
ERISA documents, dating back to 1985) (see at­
tached FAXED list of TGM ERISA coins, Decem­
ber 18, 1991, as “valued” for the FTC by coin
dealer Garrett) (see letter from attorney Gilbert
to Safrabank, attached). Garrett simply looked
up the emergency liquidation bids, not ‘asks’ or
‘fair market value’.

119.

The TGM ERISA pension coins were not listed
for turnover in the FINAL JUDGMENT AND
ORDER, but were fully disclosed to the FTC and
were excluded per the contract maxim inclusio
unis est exclusio alterius.

120.

Among other statements, Vartian said in 1993
about that first known secret meeting held on or
about January 22, 1992 after the Blodgett’s had
fully performed, in questioning by attorney
Brent Ward:
A.

“(we went} to the office of Joan Lancaster, who
is a prosecutor in Minneapolis. I was accom­
panied by Mr. Bennett Rushkoff and Gordon
Kahn and the three of us went and we met
with Joan Lancaster.
The purpose of that meeting was to discuss
the treatment of certain coins that were

App. 74
supposed to go to Mike Blodgett as part of a
settlement with the FTC. Apparently the gov­
ernment wanted to freeze the coins for poten­
tial forfeiture as property purchased with the
proceeds of fraud. For that reason, it was nec­
essary for the prosecutor to coordinate with
me what was going to happen with those coins
in the event there was a settlement with
Blodgett. She wanted to be sure I did not
transfer the coins to Blodgett so quickly that
the Justice Department would not have the
opportunity to go to court and seek a freeze
order.
121.

Further Vartian testified:
A.

“It had something to do with the settlement
that the FTC was negotiating with Blodgett
and the division of the coins - which coins
Blodgett was going to get as part of the settle­
ment. Someone at the FTC was concerned as
to whether or not - given the value of the
coins, whether or not it was a fair settlement
and asked me if I had recent valuations of cer­
tain of the coins so that they could assess the
value that they were giving to Blodgett and
the value of what they were not.

Q.

While we are on that, was there a stipulation
and agreement reached, to your knowledge,
between the government and Blodgett as to
certain coins that he and/or his wife would re­
tain as part of the settlement?

A.

I think so, yes.

App. 75
Q.

Do you know whether Mr. Blodgett actually
received the coins that were to go to him un­
der that agreement?

A.

He did not get them from me, and I don’t know
what happened after I turned the coins over.

Q.

Over to who?

A.

Over to Kelly.

Q.

Do you know whether Mrs. Blodgett received
any of the coins that she may have been to re­
ceive under that agreement?

A.

I don’t know because whatever happened,
happened after I was responsible for the coins.

Q.

You mentioned you had a meeting with Joan
Lancaster the assistant U. S. Attorney?

A.

Yes.

Q.

Was that on this subject of which coins, if any,
the Blodgett’s might be entitled to keep?

A.

No, I think at that time the FTC had an idea
of which Coins they wanted to give, and my
recollection was that it was actually

A.

{There was a receivership list of receivership
coins and there were twenty some odd coins}
that just were not on that {receivership} list.
And those were coins which I was told by the
FTC were the coins that were going to go to
Blodgett. But apparently at the time nobody
wanted it to be public knowledge what coins it
was that Blodgett was going to get. So there
isn’t a list, per se, that says them. I took those

App. 76
coins and I labeled those with - I taped them
together. I rubberbanded them together and I
put a label on them saying they were for
Blodgett. And when I turned them over to
Kelly, it had all this labeling on it to make
sure that Kelly didn’t by mistake sell one of
those. Since they were also of interest to the
U. S. Attorney’s Office in Minneapolis. I am
pretty sure that the trustee would still have
them because I think they are under a lot of
different rules about not alienating them ...”
122.

Vartian also stated that when Bennett Rushkoff
was away from the FTC on vacation, Vartian
worked with FTC A. U. S. A.’s Connie Wagner,
David Fix and Michael McCarey.

123.

Gilbert and the FTC and DOI also misled the
Blodgett’s that the TGM ERISA coins would be
returned out of Safrabank, when all along Var­
tian had already taken possession of those coins
prior to February 18, 1992.47

124.

Vartian also stated as did Trustee Stoebner in
court filings that the FINAL JUDGMENT AND
ORDER did not mention the “twenty some”
{ERISA} coins to be returned to the Blodgetts,
thus justifying that neither person had any no­
tice or legal duty to protect or return them.

125.

While it was true the FINAL JUDGMENT AND
ORDER, nor the December 18, 1991 order

47 Mr. Blodgett’s trip on February 18, 1991 out to Safrabank
to pick up those ERISA coins was doomed from before he took off,
in further egregious affirmative Government scheme with Var­
tian and Gilbert.

App. 77
appointing Vartian did not mention ERISA Vartian’s own deposition (excerpts attached)
and the FTC’s own ‘appraisal’ by Garrett and Al­
ternative # 1 and # 2 negotiations gives the lie
to those “defenses” as Vartian clearly stated that
the four attorneys at that first known secret
meeting in January 1992, held months prior to
any such attempted in court defenses by Vartian
and Stoebner, all knew the coins were under “a
lot of rules not to be alienated” and were to be
returned to the Blodgett’s.
126.

Gordon Conn (aka Kahn), Stoebner’s attorney
was at that meeting and his knowledge is im­
puted from the FTC and to Stoebner, and Faegre
& Benson, and all its partners including Kroupa
and

1187. Gitlitz v. Commissioner, 531 U.S 206 (January
2001) as applied herein to tax year 1999 (which
could have been carried back to 1997 and for­
ward to 2019) (refunds estimated at $215,000
which would be included in the ex parte dam­
ages);
1188. And as to misconduct of IRS Chief Counsel’s Of­
fice and Judge Kroupa in 2003 Tax Court pro­
ceedings, ignoring or omitting, see Stoebner v.
Meshbesher, 172 F. 3d 607 (8th Cir. 1999) as to
$350,000 deductible in 1999);
1189. The unreported payment on any TGM 1120S of
$121,000 to Vartian deductible as paid as “Ad­
ministrative expenses” approved by Judge Kressel and the FTC and Gilbert.

App. 78
1190. And the recent indictment, guilty plea, and sen­
tencing of Judge Kroupa, and other articles at­
tached herein as compared with docket sheet
(attached) for Ms. Blodgett’s 2003 Tax Court
proceedings wherein Judge Kroupa refused to
recuse herself under 28 U.S.C. § 455(a) and de­
nied any discovery for Ms. Blodgett and denied
any

Stoebner October 1999 request and then from Judge Kresser’s
November 18, 1999 Order attached, approving that October 1999
request (attached).

App. 79
A true copy in 3 sheet(s)
of the record in my custody.
CERTIFIED 10-7.1999
Francis E. Dosal, Clerk
BY: /s/ Francis E. Dosal
Deputy Clerk
MEMORANDUM
LEGAL & CONFIDENTIAL - FOR
DISCUSSION ONLY
TO:

File

FROM:

Jim Gilbert

RE:

FTC v. T.G. Morgan, Inc., et al
FTC Alternate Settlement Proposals

FILE.TO.

10117/28438

DATE:

November 11,1991

Both proposals assume $220,000 equity in the home­
stead after real estate commissions and the clients can
keep the homestead.
Alternative #1:
1.

That the defendants may continue in business by
posting a bond, keep the homestead, and keep as­
sets equal to $550,000 that the clients may select
out of Group 2 and Group 3 assets, which will be
commented on hereafter.

2.

That the sum of $300,000 will be paid into a legal
defense fund after the FTC as liquidated the coins
to be transferred to a global settlement fund.

App. 80
3.

That out of the coins to be transferred to the FTC,
the FTC will post $200,000 of value on those coins
in a fund to secure a bond for the clients to con­
tinue in business. Additionally, the clients will con­
tribute a percentage of future sales off each coin to
that bond fund. The money will be placed in an ir­
revocable trust, and the clients will have no rever­
sionary interest in that bond fund. If the
attorneys’ fees are not used in full, the balance of
the attorneys’ fees will be paid over into the settle­
ment fund.

Alternative #2
1.

The clients will keep the homestead.

2.

The defendants will be banned from being in­
volved for the rest of their lives in the coin and in­
vestment business, except where the defendants
may be otherwise licensed by the state for real es­
tate, insurance or other governmental license.

3.

The clients will keep the sun of $950,000 out at
assets selected from Group 2 and Group 3.

4.

The sum of $500,000 will be paid for attorneys’
fees, and any unused portions will be paid into the
settlement fund once the litigation is done. These
attorneys’ fees can only be used for litigation with
the FTC, with third parties, with debtor/creditors,
and for criminal defense fees.

5.

The FTC will help negotiate a side settlement with
Britt to dispose of that lawsuit now, and will con­
tribute some of the coins that they are going to be
receiving to Britt facilitate that settlement.

App. 81
Group 1 Assets:
There was a Group 1 designation of assets that will be
considered personal, prior acquired, and/or family as­
sets. These assets will remain with their respective
owners, and will include the South Dakota farms that
Diane inherited and the coins and bullion that were
acquired by separate family members other than Mi­
chael and owned by those family members for a num­
ber of years. The retention of these assets will be
subject to appropriate proof of acquisition and owner­
ship in either Diane or the children.
All of the personal household goods and belongings in
the homestead and personal items, including Diane’s
furs, the T-shirt company, the Steinway piano, the Jap­
anese scrolls, the Suburban automobile, and all of the
furniture, fixtures and equipment, will be designated
as Group 1 assets, all going or remaining with the fam­
ily, subject to proof of ownership.
Group 2 Assets:
Group 2 assets will include other personal affects, in­
cluding antiques (subject to appraisal), documents
which we valued as a group for the salvage value of
$250,000 (but those documents will be subject to iden­
tification and appraisals), the accounts receivable
owed to T. G. Morgan, and the coin lists supplied to
Doug Kelley by Diane and Mike Tuesday morning.
Those coins, as a group, were valued by Bennett and
their coin expert at $591,000, and were valued as fol­
lows:

App. 82
3 Indian coins

$12,500 - $14,00 each on a
30-day sale

2 Stellas:
$55,000 - $60,000
$75,000 - $80,000
$75,000 assuming MS65
$59,000
High Relief 920-65 $22,000
$175,000 - $200,000
1893
(although Bennett thought
he might be able to get
$300,000 to $400,000 for
this coin)
$100,000, assuming MS65
1895

#65
#66
1851
1837

Clients could retain part of these coins as the alterna­
tive assets they want to select as part of Group 2, and
would be able to resell these assets if the ban was in
effect, only to other dealers.
We disclosed the acquisition of the rare documents in
excess of $600,000 or $700,000, but that our client felt
that on the immediate fire-sale type basis, they might
fetch $350,000. The paintings were valued at $150,000,
the antiques were valued at $35,000, and all of these
were on a forced liquidation sale.
The global settlement pot would be set up so that any
and all customers, partners, or creditors who make
claim to this settlement pot would have to sign a gen­
eral release releasing the codefendants, their agents
and employees from any and all claims, both now and
in the future. These other parties, of course, would not
have to opt into this settlement fund and may be able

App. 83
to pursue separate recourses against the defendants,
including independent lawsuits or possible involun­
tary bankruptcy proceedings.
Hopefully, there will be enough incentive there for
them to opt into the settlement fund to work an overall
settlement. This would include Britt, Oklahoma,
Stedsman, the people at South Dakota, and any other
claimants that we can identify. A notice will go out to
all of the potential claimants advising them of the fund
after everything has been resolved.
In regard to confidentiality, the government said that
they cannot agree to a confidentiality agreement, but
would agree to keep the financial information confiden­
tial.
We also discussed a possible RICO forfeiture on poten­
tial criminal proceedings, and the FTC said they have
had no experience with them, and there is a possibility
that these other assets that our clients are getting
might be subject later forfeiture. We will endeavor to
get the court’s approval on this to give it some added
strength, but that issue has to be looked at and our cli­
ents have to be aware of that risk.

App. 84
Enter name of debtor and case number exactly the
same as court notices
All attached pages must be letter size (81/2x11)
United States
Bankruptcy Court
District of Minnesota
In re (Name of Debtor)
T.G. Morgan, Inc.

PROOF OF CLAIM

Case Number
92-40578 RIK

NOTE: This form should not be used to make a claim
for an administrative expense arising after the com­
mencement of the case. A “request” of payment of an
administrative expense may be filed pursuant to
11 U.S.C. § 581.
E Check box if you are
Name of Creditor
not sure that anyone
(The person or entity to
else is going to claim
whom the debtor owes
relating to your claim.
money or property)
(See Attachment B)
Federal Trade Commission
Name and Address where □ Check box if you have
received any notices
Notices Should be Sent
from
the bankruptcy
Bennett Rushkoff
court in this case.
Federal Trade Commission
E Check box if the ad­
Room 200
dress differs from the
6th St. & Pennsylvania
address on the enve­
Ave., N.W.
lope
sent to you by the
Washington, DC 20580
court.
Telephone No.
(202) 326-3439

App. 85
ACCOUNT OR OTHER NUM­
BER BY WHICH CREDITOR
IDENTIFIES DEBTOR:

Check here if this claim:
□ replaces
□ amends
a previously filed claim,
case:__________

1. BASIS FOR CLAIM:

□ [Illegible] in 11 U.S.C.
§ 1114(a)
□ Wages, [illegible], and
commissions (Fill out
below)
Your social security
number_______________
Unpaid compensation for
services performed from

□ Goods sold
□ Services performed
□ Money retained
□ Personal injury/
wrongful claim
□ Taxes
H Other (Describe
briefly): violation of
§ 5(a) of FTC Act

to
[illegible]

[illegible]

2. DATE DEBT WAS
INCURRED:

3. IF COURT JUDGMENT,
DATE OBTAINED:

Jan. 1,1987 to Feb. 10,
1992

March 5, 1992
(Attachment A)

4. classification of claim. Under Bankruptcy Court
all claims are classified as one or more of the follow­
ing: (1) Unsecured nonpriority (2) Unsecured prior­
ity (3) Secured. It is possible for part of a claim to
be in one category and part in another.
check the appropriate box or boxes that best de­
scribe our claim and state the amount of the claim.
□ SECURED CLAIM $________________________________

Attach evidence of protections on security interest
Brief Description of Collateral:
□ Real Estate □ Motor Vehicle
□ Other (Describe briefly)

App. 86
Amount of real estate, motor vehicles, and other
charges included in securing claim above. $
*
[X] UNSECURED NONPRIORITY CLAIM $ 38.056.174 *

A claim is unsecured if there is no collateral or [illeg­
ible] on the debtor securing the claim or to the extent
that the value of such property is less than the
amount of the claim.
□ UNSECURED PRIORITY CLAIM $____________________

Specify the [illegible] of the claim
□ Wages, salaries, or commissions (up to $2000L
earned not more than 30 days prior filing of the
bankruptcy petition or [illegible] of the debtor’s busi­
ness, whichever is earlier)—11 U.S.C. § 507(a)(3)
□ Contributions as an employee benefit plan—
11 U.S.C. § 507(a)(4)
□ Up to $ [illegible] of discounts toward purchases,
leases or rental of property or services for personal,
family, or household use—11 U.S.C. § 507(a)(5)
□ Taxes or penalties of governmental units11 U.S.C. § 507(a)(7)
□ Other—11 U.S.C. § 507(a)(2), (a)(5)—(Describe
briefly)
5. TOTAL AMOUNT OF CLAIM AT TIME CASE FILED:
$.
$38.046.524*
$.

(Unsecured)

(Secured)

(Priority)

$38,046,524* □ Check this box if claims includes
precertification charges in addition to
(Total)
the [illegible] of the claim. Attach
itemized statement of all additional
charges

App. 87
6. credits and setoffs: The amount of all payments
on this claim has been credited and deducted for the
purpose of making this proof of claim, in filing this
claim, claimant has deductions and amounts that
claimant [illegible] to debtor.
7. supporting DOCUMENTS: [Illegible] copies of sup­
porting documents, such as supervisory forms, court­
house orders, invoices, itemized statements of
running accounts, court judgments, or evidence of [il­
legible] interests. If the documents are not available,
explain, if the documents are voluminous, attach its
summary.
see attached statement
8. time stamped COPY: To receive an acknowledgment
of the filing of your claim, include a stamped, selfaddressed envelope and copy of this proof of claim.
SEND CLAIM TO:
U.S. Bankruptcy Court
600 Towle Building
330 2nd Ave. S.
Minneapolis, MN 55401
Date
Sept. 25, 1992

Sign and print the name and title, if
any, of the [illegible] authorized to
file this claim (attach copy of power
of attorney, if any)
/s/ Bennett Rushkoff
Bennett Rushkoff, Attorney, F.T.C.

App. 88
Penalty for presenting fraudulent claim.'. Fine
of up to $50,000 or imprisonment for up to 5
years, or both. 18 U.S.C. § 152 and 2571.
*less market value (as of 3/5/92) of coins received by
Debtor’s customers.

App. 89
UNITED STATES COURT OF CLAIMS
WASHINGTON, D.C.
MICHAEL W. BLODGETT,
INDIVIDUALLY AND AS
TRUSTEE FOR THE T.G. MOR­
GAN DEFINED BENEFIT
PENSION PLAN (ERISA); DIANE
S. BLODGETT, INDIVIDUALLY
AND AS BENEFICIARY OF THE
T.G. MORGAN DEFINED BENE­
FIT PENSION PLAN; WARREN
AND JEAN HARTJE, INDIVID­
UAL AND FOR THE WARREN
HARTJE SALES COMPANY
EMPLOYEES’ PENSION PLAN
AND TRUST (ERISA) ELEANOR
CARLSON; AND PHIL FLOR­
ENCE et al, AND THE EMPIRE
PAPER COMPANY TENSION
PLAN AND TRUST (ERISA); AND
OTHER UNNAMED PENSION
PLANS, PARTNERSHIP OWN­
ERS, AND INDIVIDUALS . . .
PLAINTIFFS
vs.
the UNITED STATES OF AMER-

DEFENDANTS

COMPLAINT
CASE NUMBER:
94-1069C
(Filed Dec, 16,
1994

App. 90
COMPLAINT UNDER THE TUCKER
ACT AND OTHER AUTHORITY
Plaintiffs, for their Complaint against the Federal
Trade Commission, the United States of America, and
individual defendants including defendants to be
named, state and allege as follows:
PARTIES
At all times relevant hereto, Plaintiffs:
Michael W. Blodgett and Diane S. Blodgett were
residents of Minnesota; Warren and Jean Hartje were
residents of North Dakota, with a temporary domicile
in Minnesota; Phil Florence was a resident of Georgia,
as was Eleanor Carlson; The T.G. Morgan Defined Ben­
efit Pension Plan

App. 91
673 F.3d 1342 (2012)
Gladys S. VANDESANDE, Plaintiff-Appellant,
v.
UNITED STATES, Defendant-Appellee.
No. 2011-5012
United States Court of Appeals, Federal Circuit.
March 23. 2012
Roderick V. Hannah, of Davie, FL, argued for plaintiffappellant.
Hillary A. Stern, Senior Trial Attorney, Commercial
Litigation Branch, Civil Division, of United States De­
partment of Justice, of Washington, DC, argued for de­
fendant-appellee. With her on the brief were Tony
West, Assistant Attorney General, Jeanne E. Davidson,
Director, and Todd M. Hughes, Deputy Director, and
Dawn E. Goodman, Trial Attorney.
Before NEWMAN, PLAGER, and LINN, Circuit
Judges.
PLACER, Circuit Judge.
This is a dispute between the Government and a
federal employee over whether a “Stipulation Agree­
ment Regarding Damages,” resulting from a settle­
ment of an earlier personnel case, is a contract, a
consent decree, or perhaps both. The label we put on it
dictates the court that will have jurisdiction to hear
the case on its merits, a necessary predicate to a
judicial determination of whether the Stipulation
Agreement (hereafter “Stipulation Agreement” or

App. 92
“Agreement”) was breached by the Government as the
employee alleges. This dispute is yet another example
of the wastefulness of litigation over where to litigate.
Plaintiff-Appellant, Ms. Gladys S. VanDesande,
entered into the Stipulation Agreement with the ap­
proval of the Equal Employment Opportunity Com­
mission (“EEOC”) to resolve Ms. VanDesande’s Title
VII pregnancy discrimination claim against her em­
ployer, the United States Postal Service (“USPS”). She
later filed suit in the Court of Federal Claims alleging
that the Government breached that Agreement.
The Court of Federal Claims, at the Government’s
behest, held that it did not possess jurisdiction to hear
Ms. VanDesande’s claim because the Stipulation
Agreement was a consent decree, not a contract. On ap­
peal, Ms. VanDesande argues that, whatever else it
may be, the Agreement is a contract for purposes of en­
forcement. Thus we must determine the legal status of
the Stipulation Agreement.
Though there is precedent on both sides of this ar­
gument, we conclude that the trial court erred by hold­
ing the Stipulation Agreement not enforceable as a
contract within the jurisdiction of the Court of Federal
Claims; accordingly, we reverse and remand for further
proceedings consistent with this opinion.

BACKGROUND
We begin by briefly summarizing the lengthy and
tortured history of this case. To fully detail its course

App. 93
through the several federal agencies and courts during
the numerous years it has been in dispute (nearly a
decade and a half) would unduly extend the opinion,
and it might be confused with Jarndyce v. Jarndyce.1
Ms. VanDesande in 1998 and 1999 filed a series of
complaints with the USPS, her employer, and subse­
quently with the EEOC, alleging that the USPS had
violated the Pregnancy Discrimination Act, 42 U.S.C.
§ 2000e(k) (amending Title VII of the Civil Rights Act,
42 U.S.C. § 2000e-16). Before the EEOC, the com­
plaints were consolidated into a bifurcated proceeding,
in which the question of liability was first addressed.
On the question of liability, the EEOC issued an Order
finding that the USPS had discriminated and retali­
ated against Ms. VanDesande.
On the question of damages, the parties entered
into the Stipulation Agreement, at issue here, which
settled that phase of the proceeding substantially in
her favor. On June 23, 2003, the EEOC issued a Final
Order, closing the case, which incorporated the Stipu­
lation Agreement by reference. The USPS then issued
a Notice of Final Action adopting the EEOC’s order.
Later in 2003, Ms. VanDesande notified the USPS
that she believed the agency had breached the Stipu­
lation Agreement. The USPS, in a Final Decision dated
November 4, 2003, denied Ms. VanDesande’s claim.
She appealed the denial to the EEOC. Several years
went by before the EEOC issued its decision, in which
1 Jarndyce v. Jarndyce is the Chancery suit around which
the plot of Dickens’s Bleak House (1853) revolves.

App. 94
it found that Ms. VanDesande had not met her burden
of showing that the USPS failed to comply with the
Stipulation Agreement. Ms. VanDesande requested re­
consideration, and on May 17, 2006, the EEOC denied
the request and informed Ms. VanDesande of her right
to file a civil action in an appropriate United States
District Court.
Ms. VanDesande then filed an action for breach of
the Stipulation Agreement in the District Court for the
Southern District of Florida. In response to that law­
suit, the Government filed a Motion for Summary
Judgment in which it argued that the District Court
lacked subject matter jurisdiction over Ms.
VanDesande’s complaint because it was “a contract
claim within the meaning of the Tucker Act.” Defend­
ant’s Motion for Summary Judgment and Memoran­
dum of Law at 6, VanDesande v. Potter, No. 06-61263
(S.D. Fla. Mar. 28, 2007). According to the Government,
because Ms. VanDesande’s claim for monetary dam­
ages exceeded $10,000, “[t]he United States Court of
Federal Claims has exclusive jurisdiction over Plain­
tiff’s monetary claims for breach of the Stipulation
Agreement . . . against the Postal Service.” Id. Follow­
ing an unsuccessful attempt at a mediated settlement,
the parties stipulated to a voluntary dismissal of the
case, which was entered on May 31, 2007.
In July of 2007, the USPS unilaterally terminated
Ms. VanDesande’s employment (the Stipulation Agree­
ment had included a lump sum payment to her in ex­
change for her resignation). Believing her termination
was wrongful because the USPS had not yet complied

App. 95
with part of the Stipulation Agreement, Ms.
VanDesande submitted another breach notice to the
USPS. After the USPS failed to timely respond, Ms.
VanDesande again appealed to the EEOC. On Febru­
ary 5, 2008, the EEOC issued its decision in which it
found that Ms. VanDesande had not shown that the
USPS failed to comply with the Stipulation Agree­
ment, and again informed Ms. VanDesande of her right
to file a civil action in an appropriate District Court.
On May 8, 2008, Ms. VanDesande once again filed
suit in the District Court for the Southern District of
Florida, this time seeking de novo adjudication of her
Title VII pregnancy discrimination claim under 42
U.S.C. § 2000e-16(c). In an order issued February 18,
2009, the District Court granted the Government’s mo­
tion to dismiss the case as untimely. The court deter­
mined that Ms. VanDesande was required to file her
civil action for a de novo trial of the underlying dis­
crimination complaint within 90 days of receiving the
USPS’s Notice of Final Action on those charges, pre­
sumptively the 2003 USPS Notice of Final Action
adopting the EEOC’s order. Thus the court concluded
that Ms. VanDesande’s action was time-barred.
Ms. VanDesande. adopting the Government’s posi­
tion in her first District Court suit that the agreement
is a contract and can be enforced only in the Court of
Federal Claims, then filed on April 24, 2009, a com­
plaint for breach of contract in the Court of Federal
Claims; this is the suit that brought the case here. As
indicated above, the Government in this suit again
moved to dismiss the case for lack of subject matter

App. 96
jurisdiction. Now, however, in sharp contrast to its orig­
inal stance before the District Court, the Government
argued before the Court of Federal Claims that the
Stipulation Agreement is not a contract but a consent
decree, enforcement of which is not within the jurisdic­
tion of the Court of Federal Claims under the Tucker
Act. Vandesande v. United States, 94 Fed. Cl. 624, 629
(Fed.Cl.2011). The Court of Federal Claims, after a re­
view of the conflicting precedents on the issue, agreed
with the Government and granted the motion. Ms.
VanDesande timely appeals. We have jurisdiction un­
der 28 U.S.C. § 1295(a)(3).
DISCUSSION
The issue on appeal is the determination by the
Court of Federal Claims that it lacks subject matter
jurisdiction over Ms. VanDesande’s claim for breach of
contract by the Government. We review determina­
tions of the Court of Federal Claims regarding its ju­
risdiction without deference. Wheeler v. United States,
11 F.3d 156. 158 (Fed.Cir.1993).
I.
When parties to a dispute arrive at an agreement
that settles the dispute, the resulting agreement will
generally have the characteristics of a contract: “a
promise or a set of promises for the breach of which the
law gives a remedy, or the performance of which the
law in some way recognizes a duty.” Restatement (Sec­
ond) of Contracts § 1 (1981). A party alleging a breach

App. 97
of the contract may bring an action in a court of com­
petent jurisdiction for legal or equitable remedies. Id.
at § 345. In some cases, however, a dispute settles only
after it becomes a matter of court proceedings. If the
parties later negotiate a settlement agreement and
that agreement is incorporated into a court decree that
terminates the judicial proceeding, determining where
to bring an action for enforcement can become a point
of dispute. The question that arises in such cases is
whether the parties must enforce their agreement
through the trial forum that issued the decree, or
whether they may pursue a separate action for breach
of contract in any suitable court.
Typically, the court that issues a consent decree
will retain jurisdiction to enforce it, see, e.g., Kokkonen
u. Guardian Life Ins. Co. ofAm., 511 U.S. 375, 379,114,
S.Ct. 1673, 128 L.Ed.2d 391 (1994), and often the set­
tlement agreement that led to the decree will so spec­
ify. Even if the matter is not clearly addressed in
advance, in many cases the same court will have juris­
diction regardless of whether the theory for enforce­
ment is a breach of contract or breach of a judicial
decree.
In the federal system, however, when the United
States is the defendant the difference between enforce­
ment of a court decree by the issuing forum and en­
forcement of a settlement agreement through a
separate suit for breach of contract becomes a matter
of critical importance. It can determine which court in
the system is empowered to decide the dispute.

App. 98
For example, if the United States is a party to a
contract that the Government is alleged to have
breached, and the claim is for more than $10,000, the
exclusive forum for the suit is in the Court of Federal
Claims for the damages claimed to have resulted from
the breach. Compare 28 U.S.C. §§ 1346(a)(2) with id.
1491(a)(1). Thus, when viewed simply as a contract, a
breach of a settlement agreement involving damages
of more than $10,000 is within the Tucker Act jurisdic­
tion of the Court of Federal Claims. See Holmes v.
United States, 657 F.3d 1303, 1317 (Fed.Cir.2011).
But what if the claim against the Government is
based not on a settlement agreement per se, but on a
settlement agreement that has been incorporated into
a judicial or administrative order, in the form, for ex­
ample, of a consent decree? Does the non-breaching
party have the option to pursue a remedy in the Court
of Federal Claims under the Tucker Act, or does juris­
diction for enforcing such an agreement rest solely in
the hands of the tribunal that issued the order?
This is a matter of first impression in this court,
and, as this case exemplifies, parties wishing to enforce
such agreements with the Government require an­
swers to these questions in order to know which fo­
rums are available. For nearly nine years Ms.
VanDesande has been seeking enforcement of her Stip­
ulation Agreement with the Government. As we have
explained, she first brought an enforcement suit
against the Government in the District Court for the
Southern District of Florida. Then when that failed,
and her subsequent attempt to get de novo review was

App. 99
blocked, she took her complaint to the Court of Federal
Claims as the Government had instructed. Here the
Government reversed field and argued that her suit
was actually one for enforcement of a decree, and not
after all a contract claim within the jurisdiction of the
Court of Federal Claims. That court agreed with the
Government and dismissed the case. The result of all
this, if the Government gets its way, is to leave Ms.
VanDesande with no judicial forum able to hear her
complaint.2
We put aside for later consideration the possible
consequences of the Government’s attempt to win this
case by taking inconsistent positions in two different
federal courts. This fast footwork by the Government
not only imposed further delay and litigation costs on
2 In the Southern District of Florida, the Government took
the position that EEOC regulations contemplate just such an out­
come. See Defendant’s Motion for Summary Judgment and Mem­
orandum of Law, supra, at 10. According to the Government,
“[t]here is no provision [under EEOC regulations] that allows a
federal employee to bring an enforcement action in district court
if the EEOC has determined that the agency is in compliance with
the EEOC’s Final Order.” Id. While there may not be an EEOC
regulation that expressly authorizes judicial enforcement actions,
the absence of an agency regulation does not per se determine the
jurisdiction of a federal court to hear an appeal from the agency.
Indeed, the regulations provide that “[a] complainant may peti­
tion the Commission for enforcement of a decision issued under
the Commission’s appellate jurisdiction,” 29 C.F.R. § 1614.503(a)
(emphasis added). Thus, the regulations clearly do not confine en­
forcement actions to the EEOC, as the Government contends.
Simply because an employee chooses to initially pursue enforce­
ment through the EEOC does not preclude her from later seeking
enforcement in a court of competent jurisdiction.

App. 100
a citizen trying to obtain relief in the nation’s courts,
but caused a case of ping-pong among the courts them­
selves. with a resulting waste of judicial resources.
We turn then first to the substance of this appeal.
To resolve it, we must review the Court of Federal
Claims’s twin holdings: that consent decrees and set­
tlement agreements are mutually exclusive, and that
the Stipulation Agreement in this case is a consent de­
cree over which jurisdiction is lacking.
A.
In Holmes v. United States, we held that “Tucker
Act jurisdiction may be exercised in a suit alleging
breach of a Title VII settlement agreement,” and thus
jurisdiction properly lay in the Court of Federal Claim,
657 F.3d at 1317. The question Holmes left unan­
swered, however, since it was not before the court, was
whether the Court of Federal Claims also has jurisdic­
tion over Title VII consent decrees. Id. at 1316. The
trial court, recognizing that “inquiry into consent de­
cree vel non would be academic if the Stipulation
Agreement, despite its incorporation into the Final Or­
der of the [EEOC], nevertheless obtained or retained
the status of an independent legal agreement between
the parties,” Vandesande, 94 Fed.Cl. at 630, requested
additional briefing from the parties on the question of
whether settlement agreements and consent decrees
are inherently mutually exclusive.
After reviewing the submissions and the way
courts have treated similar agreements in other cases,

App. 101
the trial court concluded that an action for breach of
contract no longer exists “if the contract alleged is a
settlement agreement that has been incorporated in a
consent decree entered by another court or administra­
tive entity.” Id. at 632. After reviewing the same mate­
rials, we conclude otherwise.
In Local No. 93, Inti Ass’n & Firefighters v. City of
Cleveland, 478 U.S. 501,106 S.Ct. 3063,92 L.Ed.2d 405
(1986), the Supreme Court was asked to determine the
legal status of a Title VII consent decree. The Court ap­
plied a flexible approach in which it declined to be cab­
ined by labels. See id. at 519, 106 S.Ct. 3063 (“The
question is not whether we can label a consent decree
as a ‘contract’ or a judgment,’ for we can do both.”). In­
stead, the Court noted that the legal status of a consent
decree depends on the purpose of the litigation. Id.
(“this Court’s cases do not treat consent decrees as ju­
dicial decrees in all respects and for all purposes”).
The issue in Local No. 93 was whether a district
court’s consent decree settling a Title VII race discrim­
ination case was an “order” for purposes of section
706(g), which prohibits any “order of the court” from
providing relief to individuals who were not victims of
discrimination. The Court concluded that for such pur­
poses, the contractual nature of Title VII consent de­
crees trump their nature as judicial acts. Specifically,
the Court emphasized Congress’ intention that “volun­
tary compliance ... be the preferred means of achiev­
ing the objectives of Title VII” and that the “voluntary
nature of a consent decree is its most fundamental
characteristic.” Id. at 515 and 521, 106 S.Ct. 3063.

App. 102
Indeed, the Court noted that “it is the parties’ agree­
ment that serves as the source of the court’s authority
to enter any judgment at all.” Id. at 522,106 S.Ct. 3063.
Thus, the Court concluded that consent decrees are not
judicial orders for the purposes of section 706(g) of Ti­
tle VII. Id. at 521,106 S.Ct. 3063
The trial court in its opinion noted that despite
highlighting the “contractual resemblance” of Title VII
consent decrees, “nothing in the [Local No. 93] decision
established that violation of the terms of a consent de­
cree could be litigated separately and solely as a
breach of contract.” Vandesande, 94 Fed.Cl. at 631.
That statement is correct as far as it goes, since that
issue was not before the Court. What Local No. 93 es­
tablishes, however, is that consent decrees and settle­
ment agreements are not, as a matter of law, mutually
exclusive, and “[t]he fact that a consent decree looks
like a judgment entered after a trial” does not control
whether the consent decree is treated as a court order.
Local No. 93,478 U.S. at 523,106 S.Ct. 3063 (emphasis
in original). Instead, the legal status of a Title VII con­
sent decree will depend upon the nature of the case.
The Government cites to the analysis employed by
our sister circuits of consent decrees under the Prison
Litigation Reform Act (“PLRA”). See Rowe v. Jones, 483
F.3d 791 (11th Cir.2007); Benjamin v. Jacobson, 172
F.3d 144 (2d Cir.1999) {en banc). Even assuming they
had the power to undercut the position of the Supreme
Court taken in Local No. 93, we are not persuaded that
these cases are so inconsistent. Benjamin and Rowe
both involved actions under the PLRA’s “termination

App. 103
provision,” 18 U.S.C. § 3623(b). The terms “consent de­
cree” and “private settlement agreement” are specifi­
cally defined in the PLRA, and termination
proceedings are limited to the former. Based on the
PLRA’s specific treatment of consent decrees and set­
tlement agreements, both courts concluded “that Con­
gress sought to make the Act’s concepts of consent
decrees and private settlement agreements mutually
exclusive.” Benjamin, 172 F.3d at 157 (emphasis
added); see also Rowe, 483 F.3d at 796 (citing Benja­
min). But neither court suggested that the PLRA’s
bright-line distinction between consent decrees and
settlement agreements reflects the “plain definitions”
of those terms that are broadly applicable to other ar­
eas of law, and Congress provided no indication that
the statutorily-derived mutual exclusivity would ex­
tend beyond the PLRA. Thus, we do not view these
cases as detracting from the Supreme Court’s flexible
approach for determining the legal status of Title VII
consent decrees found in Local No. 93.
We also are unpersuaded that the other cases dis­
cussed in the trial court’s opinion establish that con­
sent decrees and settlement agreements are mutually
exclusive for all purposes, especially enforcement. The
trial court’s conclusion that they are mutually exclu­
sive was based in large part on an opinion from this
court, Blodgett v. United States, No. 96-5067, 1996 WL
640238 (Fed.Cir. 1996), which cited a Supreme Court
decision, United States v. Swift & Co., 286 U.S. 106, 52
S.Ct. 460, 76 L.Ed. 999 (1932), for the premise that “a
decree entered upon consent is a judicial act and is not

App. 104
a contract.” Blodgett, 1996 WL 640238 at *1. As the
trial court correctly observed, however, Blodgett was a
nonprecedential opinion of this court, and therefore is
not binding on subsequent decisions.
Furthermore, because the portion of Swift cited in
Blodgett was not essential to the Court’s decision in
that case, it is also nonbinding dictum. Swift involved
a consent decree between the Government and certain
meat packers that enjoined the meat packers from con­
ducting certain activities that the Government alleged
violated the Sherman Antitrust Act. 15 U.S.C. § 4.
Swift, 286 U.S. at 111, 52 S.Ct. 460. When a district
court modified the consent decree 11 years later, a
group of wholesale grocers intervened, arguing that
the modifications constituted a breach of the parties’
underlying contractual obligations. Id. at 114, 52 S.Ct.
460. The Supreme Court rejected the interveners’ ar­
gument “that a decree entered upon consent is to be
treated as a contract and not as a judicial act” but also
noted that la] different view would not help them, for
they were not parties to the contract, if any there was.”
Id. at 115, 52 S.Ct. 460.
Thus in Swift, determining that the consent de­
cree should not be treated as a contract was not essen­
tial to the Court’s disposition of the interveners’ claim.
Beyond that, the Swift opinion can be seen as less than
wholly consistent regarding the judicial act and con­
tract paradigms of a consent decree. Despite the
Court’s insistence that a consent decree is a judicial
act, it nonetheless recognized that consent judgments
have certain elements of a bargain. Id. at 116-17, 52

App. 105
S.Ct. 460. In fact, the test the Court adopted in Swift
for modifying a consent decree was essentially a con­
tractual one “Nothing less than a clear showing of
grievous wrong evoked by new and unforeseen condi­
tions should lead us to change what was decreed after
years of litigation with the consent of all concerned." Id.
at 119, 52 S.Ct. 460 (emphasis added). In view of
Swift’s internal inconsistencies, and because it was not
essential for the Court to find that the consent decree
“was not a contract as to any one,” we decline to give
stare decisis effect to statements taken from Swift sug­
gesting that consent decrees are not to be treated as
contracts.
More importantly, our view of Swift is consistent
with several later opinions from the Supreme Court ac­
knowledging the hybrid nature of consent decrees as
both contracts and judicial acts, For example, in United
States v. ITT Cont’l Baking Co., 420 U.S. 223, 95 S.Ct.
926, 43 L.Ed.2d 148 (1975), the Government brought
an action against a manufacturer of baked goods seek­
ing imposition of civil penalties for the manufacturer’s
alleged violation of a Federal Trade Commission con­
sent order prohibiting certain activities that allegedly
violated the Sherman Antitrust Act. In a footnote, the
Court acknowledged that “ [cjonsent decrees and orders
have attributes both of contracts and of judicial de­
crees or. in this case, administrative orders. . . . Be­
cause of this dual character, consent decrees are
treated as contracts for some purposes but not for oth­
ers.” Id. at 237, 95 S.Ct. 926. After reviewing its treat­
ment of similar consent decrees in other cases, the

App. 106
Court concluded that “since consent decrees and orders
have many of the attributes of ordinary contracts, they
should be construed basically as contracts. . . id. at
236, 95 S.Ct. 926 (citing Hughes u. United States, 342
U.S. 353, 72 S.Ct. 306. 96 L.Ed. 394 (1952), United
States v. Atl. Ref. Co 360 U.S. 19, 79 S.Ct. 944,3 L.Ed.2d
1054 (1959), and United States v. Armour & Co., 402
U.S. 673, 91 S.Ct. 1752, 29 L.Ed.2d 256 (1971)). We are
not the first to observe that these post-Swift decisions
cast further doubt on the statements in Swift that con­
sent decrees are to be treated as judicial acts, not con­
tracts.3
The trial court took a somewhat narrower view of
the ITT line of cases, seeing them as “merely establish
[ing] that in certain contexts consent decrees are to be
analyzed or interpreted according to contract princi­
ples, but not necessarily that they are also contracts
separate from their existence as judicial orders.”
Vandesande. 94 Fed.Cl. at 631. What the trial court
failed to give sufficient weight to, however, is that
a fundamental issue in any contract enforcement
3 Scholars have reconciled the apparent conflict between the
Courts initial view of consent decrees in Swift and its later view
in Hughes, Atlantic Refining, Armour, and ITT by noting that the
Swift Court treated consent decrees as judicial acts for the pur­
poses of modification, consistent with the “time-honored principle
that an injunction is always subject to adaptation on a showing of
changed circumstances,” Milton Handler, Twenty-Fourth Annual
Antitrust Review, 72 Colum. L. Rev. 1. (1972), while Hughes, At­
lantic Refining, Armour, and ITT treated consent decrees as con­
tracts for purposes of construction. See also Thomas M. Mengler.
Consent Decree Paradigms: Models Without Meaning, 29 B.C. L.
Rev. 291, 331 (1988).

App. 107
proceeding is whether, absent enforcement, the
non-breaching party will have received the benefit of
her bargain. As a result, the application of contract
concepts lies at the heart of any claim for enforcement
in such a case. Indeed, the ITT Court noted that “a con­
sent decree or order is to be construed for enforcement
purposes basically as a contract. . . .” ITT, 420 U.S. at
238, 95 S.Ct. 926 (emphasis added). Thus, the ITT line
of cases supports a conclusion that settlement agree­
ments, even if they are incorporated into judicial or ad­
ministrative consent decrees, should be viewed for
enforcement purposes as having the attributes of a
contract.
Indeed, to hold otherwise is inconsistent with the
well-established rule that neither a court nor the par­
ties has the power to alter a federal court’s statutory
grant of subject matter jurisdiction. See, e.g., Chris­
tianson v. Colt Indus, Operating Corp., 486 U.S. 800,
818, 108 S.Ct. 2166, 100 L.Ed.2d 811 (1988); Ins. Corp.
of Ir., Ltd. v. Compaqnie des Bauxites de Guinee, 456
U.S. 694, 702, 102 S.Ct. 2099, 72 L.Ed.2d 492 (1982),
The Tucker Act provides that the Court of Federal
Claims “shall have jurisdiction to render judgment
upon any claim against the United States founded . . .
upon any express or implied contract with the United
States.” 28 U.S.C. § 1491(a)(1). In Holmes, we held that
a Title VII settlement agreement is a contract for pur­
poses of Tucker Act jurisdiction. See Holmes, 657 F.3d
at 1312. If, however, a settlement agreement was no
longer enforceable as a contract once incorporated into
a consent decree, the effect would be to divest the

App. 108
Court of Federal Claims of its Tucker Act jurisdiction
by the simple act of a court or agency adopting the
agreement. We are unaware of any act of Congress that
would allow for such an outcome.
For all of these reasons, and contrary to the first of
the trial court’s conclusions in this case, we hold that
consent decrees and settlement agreements are not
necessarily mutually exclusive.
B.
This leads to the second of the trial court’s conclu­
sions, that the Stipulation Agreement in this case is
not a contract within the jurisdiction of the Court of
Federal Claims. The Government takes the position
that the Agreement is nothing other than an EEOC or­
der, and thus a consent decree over which the Court of
Federal Claims lacks jurisdiction. However, having de­
termined that the relationship between these two la­
bels is not a mutually exclusive one, we have no
difficulty in concluding that the Stipulation Agreement
in this case is a contract for enforcement purposes.
Even if the name, “Agreement,” was not enough,
the record establishes that the Agreement has all the
indicia of a contract: “a bargain in which there is a
manifestation of mutual assent to the exchange and a
consideration.” Restatement (Second) of Contracts § 17
(1981). Furthermore, the circumstances under which
the Agreement was entered into by the parties to it,
and its extensively detailed terms, leave little doubt

App. 109
about its legal character.4 Thus, we agree with the
opinion of another of our sister circuits that a settle­
ment agreement, even one embodied in a decree, “is a
contract within the meaning of the Tucker Act.” Angie
v. United States. 709 F.2d 570, 573 (9th Cir.1983) (“The
trial court then held that the Settlement Agreement,
which is embodied in the decree of the Claims Commis­
sion, is a contract’ within the meaning of the Tucker
Act. Again, we agree.”).
II.
Finally, we take note of the Government’s attempt
to win this case by taking entirely irreconcilable posi­
tions regarding the jurisdiction of the federal courts to
hear Ms. VanDesande’s case. We recognize that the po­
sition initially taken in the District Court was under
the United States Attorney for that district, whereas
the position later taken in this court was determined
by the Department of Justice’s civil division attorneys
here in Washington, D.C. Nevertheless, both groups
are part of the United States Justice Department, and
it was the latter office that did the flip-flop.
The Justice Department, regardless of which of its
offices is last to speak, is responsible to ensure that jus­
tice is more than what is in a name. As noted during
4 The Stipulation Agreement included compensation for back
pay and lost overtime; lost sick and annual leave; interest pay­
ments; tax consequence payments, payments for pain and suffer­
ing; medical and other expenses; and, as earlier noted, a lump
sum payment in exchange for Ms. VanDesande’s resignation.

App. 110
oral argument, this court considers the Government’s
conduct in this case unacceptable and should not be
how our Government handles itself. “It is as much the
duty of the Government to render prompt justice
against itself, in favor of citizens, as it is to administer
the same, between private individuals.” President
Abraham Lincoln, Annual Message to Congress 1861
(quoted in Cong. Globe, 37th Cong., 2d Sess., Pt. IV.
App. at 2 (1962), and engraved in the facade of this
court’s building). The Government’s shifting positions
have led to an unnecessary waste of money and judicial
resources, and are manifestly unfair to the litigant.
Regrettably, this is not the first case in which the
Government urged a district court to dismiss a case on
the ground that jurisdiction belonged in the Court of
Federal Claims and then, after suit was brought in the
Court of Federal Claims, again urged dismissal on the
ground that the Court of Federal Claims lacked juris­
diction.5 We hope our decision today will reduce the
prevalence of these “jurisdictional ping-pong” games,
see Christianson, 486 U.S. at 818, 108 S.Ct. 2166. The
Government would be well advised to avoid taking po­
sitions in future litigations that open it up to the criti­
cism that it has used its overwhelming resources to
whipsaw a citizen into submission. At a minimum, the
Government should consider an authoritative position
on jurisdiction in cases such as this binding on the
Government, just as appellate courts are encouraged
5 See, e.g., Phillips v. United States, 77 Fed.Cl. 513 (Fed.Cl.
2007). Drury v. United States, 52 Fed.Cl. 402 (Fed.Cl.2002), and
Clark v. United States, 229 Ct.Cl. 570 (Ct.Cl. 1981),

App. Ill
by the Supreme Court to avoid wasteful jurisdictional
litigation by accepting the jurisdictional determination
of the first circuit that decides the jurisdictional issue.
Id. at 819,108 S.Ct. 2166 (“Under law-of-the-case prin­
ciples, if the transferee court can find the transfer de­
cision plausible, its jurisdictional inquiry is at an end.”)
CONCLUSION
For all these reasons, we reverse the Court of Fed­
eral Claim’s judgment of no jurisdiction, and we re­
mand for further proceedings on Ms. VanDesande’s
breach of contract claim.6
REVERSED AND REMANDED

6 Since that claim has yet to have its day in court, we take no
position on its merits.

